<html>
<title> - THE LEGACY OF APOLLO</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          THE LEGACY OF APOLLO

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2019

                               __________

                           Serial No. 116-37

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-034PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------      

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                             July 16, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written statement............................................     8

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written statement............................................    11

Written statement by Representative Kendra Horn, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12

                               Witnesses:

Mr. Charles Fishman, Author, ``One Giant Leap: The Impossible 
  Mission That Flew Us to the Moon''
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. David W. Miller, Vice President and Chief Technology Officer, 
  The Aerospace Corporation
    Oral Statement...............................................    20
    Written Statement............................................    22

Dr. Peter Jakab, Chief Curator, Smithsonian Air and Space Museum
    Oral Statement...............................................    26
    Written Statement............................................    29

Discussion.......................................................    33

             Appendix I: Additional Material for the Record

Letter submitted by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    64

 
                          THE LEGACY OF APOLLO

                              ----------                              


                         TUESDAY, JULY 16, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:05 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. The hearing will come to order. And 
without objection, the Chair is authorized to declare recess at 
any time.
    Good morning, and welcome to today's hearing on ``The 
Legacy of Apollo.'' I want to thank each of our distinguished 
witnesses for their participation, and I look forward to your 
testimony.
    As some of you may know, today really is the 50th 
anniversary of the launch of Apollo 11, and this hearing is 
starting about the time the three astronauts reached Earth's 
orbit before landing on the Moon. It is fitting that we hold 
this hearing. Our Committee was established in direct response 
to the challenge of Sputnik, and our predecessors on this 
Committee played an important role in authorizing and 
maintaining support for the Apollo program.
    What is the legacy of Apollo? It is a question to which 
there has been multiplicity of responses over the years, and 
our witnesses will be offering their own thoughtful 
perspectives for our consideration.
    As the 50th anniversary of the Moon landing approach has 
drawn closer, there have been numerous stories and historical 
anecdotes that have captured the media's attention, which is a 
testimony to the enduring fascination Americans have with this 
unique moment in our history. Each of these stories have shone 
a light on different aspects of the Apollo program's impact, 
whether it be something as specific as helping speed the 
development of widespread use of integrated circuits, to 
something as broad as the positive geopolitical image that the 
United States gained aftermath of the Apollo 11 landing.
    To me, these are all important legacies of Apollo. But I 
think there are also more intangible impacts that need to be 
recognized when we think of Apollo. Namely, there is the often-
cited inspirational value that Apollo and our space program 
overall has had on inspiring a generation to seek careers in 
STEM (science, technology, engineering, and mathematics) 
fields. They may not have wound up working at NASA, but they 
made meaningful contributions across a range of disciplines in 
the following decades.
    And most fundamentally, there is the proof that the Apollo 
program offered this Nation is capable of great accomplishments 
when we share a common goal and a willingness to commit the 
resources needed to achieve it.
    Apollo was a unique accomplishment at a unique time in our 
Nation's history. We should take great pride in it, but we 
should also take it as a demonstration of what we are capable 
of doing as a Nation. If we work together to harness the spirit 
and inspiration of Apollo to address the other daunting 
challenges that we face as Americans, that may be the best and 
most consequential Apollo legacies of this generation.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning, and welcome to today's hearing on ``The 
Legacy of Apollo.'' I want to thank each of our distinguished 
witnesses for their participation, and I look forward to your 
testimony.
    As some of you may know, today is the 50th anniversary of 
the launch of Apollo 11, and this hearing is starting about the 
time the three astronauts reached Earth orbit before heading 
off to the Moon. It is fitting that we hold this hearing. Our 
Committee was established in direct response to the challenge 
of Sputnik, and our predecessors on this Committee played an 
important role in authorizing and maintaining support for the 
Apollo program.
    What is the legacy of Apollo? It is a question to which 
there have been a multiplicity of responses over the years, and 
our witnesses will be offering their own thoughtful 
perspectives for our consideration.
    As the 50th anniversary of the Moon landing approach has 
drawn closer, there have been numerous stories and historical 
anecdotes that have captured the media's attention, which is a 
testimony to the enduring fascination Americans have with this 
unique moment in our history. Each of these stories has shone a 
light on a different aspect of the Apollo program's impact, 
whether it be something as specific as helping speed the 
development and widespread use of integrated circuits, to 
something as broad as the positive geopolitical image the 
United States gained in the aftermath of the Apollo 11 landing.
    To me, these are all important legacies of Apollo. But I 
think that there are also more intangible impacts that need to 
be recognized when we think of Apollo. Namely, there is the 
oft-cited inspirational value that Apollo and our space program 
overall had on inspiring a generation to seek careers in STEM 
fields. They may not have wound up working at NASA, but they 
made meaningful contributions across a range of disciplines in 
the following decades. And most fundamentally, there is the 
proof that the Apollo program offered that this nation is 
capable of great accomplishments when we share a common goal 
and a willingness to commit the resources needed to achieve it.
    Apollo was a unique accomplishment at a unique time in our 
nation's history. We should take great pride in it, but we 
should also take it as a demonstration of what we are capable 
of as a nation. If we will work together to harness the spirit 
and inspiration of Apollo to address the other daunting 
challenges that we face as Americans, that may be the best and 
most consequential of Apollo's legacies to this generation.
    I am entering two letters for the record. One is from 
Margaret Hamilton, who led the team that developed the Apollo 
on-board flight software for both the Command Module and Lunar 
Module. The other letter is from the Aerospace Industries 
Association, an association of aerospace and defense companies. 
Many of its industry members worked on the Apollo program.
    With that, I yield to Ranking Member Lucas for his opening 
statement.

    Chairwoman Johnson. I'm entering two letters for the 
record. One is from Margaret Hamilton, who led the team that 
developed the Apollo on-board flight software for both the 
command module and lunar module. The other letter is from the 
Aerospace Industries Association, an association of aerospace 
and defense companies. Many of its industry members worked on 
the Apollo program.
    And with that, I yield to Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chair.
    In 1969, driven by curiosity, ambition, and an innate urge 
to explore, Americans landed on the Moon. Doing so at the 
height of the Cold War helped establish our country's 
technological supremacy and gave us a fundamental edge over the 
Soviet Union. The Apollo program's success was far from 
certain, but our Nation set to achieve the bold goal 
nonetheless. As Neil Armstrong remarked upon return, the Nation 
staked its reputation on the mission. What resulted was perhaps 
the greatest achievement of any organization. This week we 
celebrate the 50th anniversary of that achievement. This 
celebration should be accompanied by a renewed resolve to 
return to the Moon.
    Our reasons for returning to the Moon are even stronger 
than they were 50 years ago. Going back to the Moon isn't a 
symbolic effort; we need an American presence there to keep us 
at the forefront of technological development, power our 
missions to Mars, and ensure American values explore the next 
frontier in space.
    The technological innovations that came from human 
exploration of the Moon have direct practical applications here 
on Earth. Technology developed by NASA is now used in 
everything from infant formula to cell phones. We have precise 
robotic surgical capacities and safer flights from de-icing 
chemicals because of NASA innovations.
    Developing the technology necessary to establish a human 
presence on the Moon will have untold applications in the 
future. For example, significant portions of the Apollo command 
and service module were built in my home State of Oklahoma. The 
integrated circuit chips contained in the service module went 
on to spark the information age. Technological advancements 
from future lunar exploration can be just as impactful.
    Direct study is also critical from a scientific 
perspective. The Moon can give us a wealth of information about 
our sun, our Solar System, our planet, giving us a better idea 
of our place in the universe. The Moon also has exciting 
potential resources, including rare Earth elements and platinum 
group metals, helium-3, and, most importantly, water ice which 
can be converted to fuel and propel future exploration.
    With all these benefits, the question isn't whether humans 
will return to the Moon; the question is whether the United 
States will lead that effort. We're facing increased 
international competition, and we can no longer take American 
leadership in space for granted. China has been very vocal 
about plans to establish a human base on the Moon. Unlike the 
U.S., which has a civilian agency overseeing exploration, 
China's program is managed by the People's Liberation Army.
    There are very real reasons to be concerned about China 
having an advantage over the U.S. from the technological 
innovations and resource development that will come from 
returning to the Moon. More importantly, explorers take with 
them their national values and establish precedent for future 
activities. I would hope that the Moon and all the cosmos will 
be explored with the principles of freedom and liberty.
    Returning to the Moon won't be easy, however. We are in the 
process of developing the technological capacities we'll need. 
Reaching the Moon requires rockets far more powerful than those 
used to reach the International Space Station (ISS). The Space 
Launch System (SLS) will be the most powerful rocket built. In 
concert with the Orion spacecraft, a state-of-the-art crew 
module--capsule I should say, SLS will allow us to travel to 
the Moon and, eventually, beyond.
    We also need to make progress on new technologies which 
aren't yet fully funded or developed. The spacesuits we 
currently use for extravehicular activity outside the ISS do 
not have the capacities required for use on the Moon. We need 
to engineer new suits that are compatible with multiple mission 
requirements. And, of course, we need lunar landers capable of 
carrying humans. NASA is working with commercial partners to 
develop these vehicles.
    Beyond the technological innovation, however, a return to 
the Moon requires steadfast, consistent support. It requires a 
true national commitment, one that doesn't change from year to 
year or with the political swings. For too long, U.S. space 
exploration has been plagued by a lack of both a vision and a 
long-term commitment to see ideas through to execution.
    I believe we now have most of the pieces in place to make a 
return to the Moon possible. Our President and Vice President 
have a bold goal. NASA has proposed an initial plan that's 
budget-neutral, technologically feasible, and makes a down 
payment to send Americans to the Moon by 2024 without 
jeopardizing other critical missions.
    To paraphrase Walter Cronkite, and yes, I watched Walter 
Cronkite all week long 50 years ago as a little kid, the world 
bore witness to man's resolve in 1969. A man's dream and a 
Nation's pledge were fulfilled. The lunar age had begun. It's 
time to renew that legacy and rekindle that resolve. I yield 
back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    In 1969, driven by curiosity, ambition, and an innate urge 
to explore, Americans landed on the Moon. Doing so at the 
height of the Cold War helped establish our country's 
technological supremacy and gave us a fundamental edge over the 
Soviet Union. The Apollo program's success was far from 
certain, but our nation set to achieve the bold goal 
nevertheless. As Neil Armstrong remarked upon return, the 
nation staked its reputation on the mission. What resulted was 
perhaps the greatest achievement of any organization. This week 
we celebrate the 50th anniversary of that achievement. This 
celebration should be accompanied by a renewed resolve to 
return to the Moon.
    Our reasons for returning to the Moon today are even 
stronger than they were fifty years ago. Going back to the Moon 
isn't a symbolic effort: We need an American presence there to 
keep us at the forefront of technological development, power 
our missions to Mars, and ensure American values explore the 
next frontier in space.
    The technological innovations that come from human 
exploration of the Moon have direct practical applications here 
on Earth. Technology developed by NASA is now used in 
everything from infant formula to cell phones. We have precise 
robotic surgical capabilities and safer flights from deicing 
chemicals because of NASA innovations. Developing the 
technology necessary to establish a human presence on the Moon 
will have untold applications in the future. For example, 
significant portions of the Apollo Command and Service Module 
were built in my home state of Oklahoma. The integrated circuit 
chips contained in the service module went on to spark the 
information age. Technological advancements from future lunar 
exploration could be just as impactful.
    Direct study is also critical from a purely scientific 
perspective. The Moon can give us a wealth of information about 
our Sun, our Solar System, and our planet, giving us a better 
idea of our place in the universe. The Moon also has exciting 
potential resources, including rare earth elements and platinum 
group metals, Helium-3, and, most importantly, water ice which 
can be converted to fuel to propel future exploration.
    With all these benefits, the question isn't whether humans 
will return to the Moon; the question is whether the United 
States will lead in that effort. We're facing increased 
international competition and we can no longer take American 
leadership in space for granted. China has been vocal about 
plans to establish a human base on the Moon. Unlike the U.S., 
which has a civilian agency overseeing space exploration, 
China's program is managed by the People's Liberation Army.
    There are very real reasons to be concerned about China 
having an advantage over the U.S. from the technological 
innovations and resource development that will come from 
returning to the Moon. More importantly, explorers take with 
them their national values and establish a precedent for future 
activities. I would hope that the Moon, and all of the cosmos, 
will be explored with the principles of freedom and liberty.
    Returning to the Moon won't be easy, however. We are in the 
process of developing the technological capabilities we will 
need. Reaching the Moon requires rockets far more powerful than 
those used to reach the International Space Station (ISS). The 
Space Launch System (SLS) will be the most powerful rocket 
built. In concert with the Orion spacecraft, a state-of-the-art 
crew capsule, SLS will allow us to travel to the Moon and, 
eventually, beyond.
    We also need to make progress on new technologies which 
aren't yet fully funded or developed. The spacesuits we 
currently use for extravehicular activity outside the ISS do 
not have the capabilities required for use on the Moon. We need 
to engineer new suits that are compatible with multiple mission 
requirements. And, of course, we need lunar landers capable of 
carrying humans. NASA is working with commercial partners to 
develop these vehicles.
    Beyond the technological innovation, however, a return to 
the Moon requires steadfast and consistent support. It requires 
a true national commitment-one that doesn't change year after 
year, or with political swings. For too long U.S. space 
exploration has been plagued by a lack of both a vision and a 
long-term commitment to see ideas through to execution.
    I believe we now have most of the pieces in place to make a 
return to the Moon possible. Our President and Vice President 
have a bold goal. NASA has proposed an initial plan that is 
budget neutral, technically feasible, and makes a down payment 
to send Americans to the Moon by 2024 without jeopardizing 
other critical missions.
    To paraphrase Walter Cronkite, the world bore witness to 
man's resolve in 1969. A man's dream and a nation's pledge were 
fulfilled. The lunar age had begun. Its time to renew that 
legacy and rekindle that resolve.

    Chairwoman Johnson. Thank you very much.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Ms. Horn follows:]

    Good morning, and thank you Madame Chairwoman for holding 
this hearing on ``The Legacy of Apollo''. And thank you to our 
witnesses for being here to share in this momentous anniversary 
of the Apollo 11 Moon landing.
    The Apollo Program and the Apollo 11 mission, including 
Neil Armstrong, ``Buzz'' Aldrin, and Michael Collins, represent 
everything we think of in America's space program-ambition, 
inspiration, innovation, and discovery.
    Apollo astronauts became our national heroes, including 
Oklahoma's own Apollo hero, Gen. Thomas P. Stafford, who 
commanded the Apollo 10 mission and the Apollo-Soyuz Test 
Project, the first international human spaceflight mission. 
I'll be speaking more about Gen. Stafford and his 
accomplishments later this week.
    The value of the Apollo program is beyond measure. Apollo's 
inspiring mission attracted countless Americans into science, 
technology, mathematics, and engineering disciplines. In 
addition, the program's stringent requirements lead to 
significant technological advances, many of which were 
translated into products that have benefited our everyday 
lives, including cordless tools, heart monitors, and 
firefighting breathing systems. Fundamentally, the success of 
Apollo on the world stage contributed significantly to 
America's global standing, and more.
    While the 50th anniversary of Apollo 11 that we are 
commemorating today was a momentous success, the anniversary 
also allows us to reflect on what we can learn from the journey 
to reaching that success, including the resilience gained from 
overcoming setbacks and failures.
    As we celebrate Apollo 11's historic accomplishment, we 
should remember those who made the ultimate sacrifice in the 
pursuit of President Kennedy's direction to send American 
astronauts to the Moon and return them safely.
    Those brave individuals included Elliot See, Charles 
Bassett, and the Apollo 1 crew, Ed White, Virgil ``Guss'' 
Grissom, and Roger Chaffee.
    Apollo taught us the value of taking audacious and yet 
intentional risks. NASA's relentless pursuit to mitigate risks, 
work through test anomalies and failures to understand what 
went wrong and why, and to take corrective actions in response, 
became the discipline and culture that defines NASA today.
    NASA's intensity and rigor in its technical pursuit to send 
our astronauts to the Moon and return them safely is captured 
in a 1970 NASA technical paper, ``What Made Apollo a 
Success?,'' issued just 1 year after the Apollo 11 landing. The 
piece concludes that, above all, ``attention to detail'' was 
critical to the Apollo 11 success.
    A few important examples include:
    <bullet> L``The single most important factor leading to the 
high degree of reliability of the Apollo spacecraft was the 
tremendous depth and breadth of the test activity.''
    <bullet> L``We considered changes large and small. An 
example of a large change is the new spacecraft hatch that was 
incorporated after the fire. However, we reviewed in equal 
technical detail a relatively small change, such as a small 
piece of plastic to go inside the astronaut's ballpoint pen.''
    <bullet> L``Throughout Apollo, many discrepancies or 
failures occurred daily. The failure had to be understood and, 
if applicable, some corrective action taken. This might involve 
design change, re inspection, or perhaps procedural change.''
    <bullet> L``Pete Conrad said that landing his Apollo 12 
lunar module, after dust obscured the landing point, was the 
most difficult task he had ever performed.
    It took all of his 20 years of experience as a professional 
aviator, his previous work on two Gemini flights, his training 
for Apollo, and his knowledge and confidence in the Apollo 
spacecraft systems to make that landing a success.''
    At contractor facilities, an equal degree of drive took 
place in understanding what went wrong and taking action in 
response.
    Apollo 11's success was built on learning from failure, and 
if we can pass that lesson to our next generation, we will be 
continuing one important legacy as we look to achieve America's 
future goals in sending humans to explore the mysteries of 
space and other worlds in our Solar System.
    Apollo inspired a generation, showed the world what's 
possible when the nation comes together to focus on an 
ambitious goal, and, in turn, changed the world in both 
foreseeable and unforeseeable ways. Through this historic 
celebration, the legacy of Apollo allows us to learn the 
lessons that can guide our pursuits to the Moon and our journey 
on to Mars.
    Thank you, and I yield back.

    Chairwoman Johnson. At this time, I'd like to introduce our 
witnesses. Our first witness is Mr. Charles Fishman and a 
journalist. And thank you for your efforts. The author of ``One 
Giant Leap: The Impossible Mission That Flew Us to the Moon.'' 
Fishman is an award-winning reporter, magazine writer, and 
author who started his career at the Washington Post where he 
spent 7 months covering the Space Shuttle Challenger accident 
in 1986. He has been reporting on space ever since for The 
Atlantic, the Smithsonian, and the Fast Company magazines, his 
longtime professional home. Mr. Fishman earned a bachelor's 
degree in social studies from Harvard University. Welcome.
    Our second witness is Dr. David Miller, Vice President and 
Chief Technology Officer of the Aerospace Corporation. Dr. 
Miller is also a Jerome Hunsaker Professor of Aeronautics and 
Astronautics at the Massachusetts Institute of Technology (MIT) 
where he is currently on extended leave of absence to work at 
the Aerospace Corporation. Previously, Dr. Miller took an 
extended leave of absence from MIT from 2014 to 2016 to serve 
as NASA's Chief Technologist. Dr. Miller earned a bachelor's 
degree, master's degree, and Ph.D. in aeronautics and 
astronautics, all from MIT.
    Our final witness is Dr. Peter Jakab, Chief Curator of the 
Smithsonian National Air and Space Museum. Formerly, Dr. Jakab 
served as the museum's Associate Director of Collections and 
Curatorial Affairs. In addition, Dr. Jakab's previous museum 
work includes stays at the Edison national historic site in 
West Orange, New Jersey, and the New Jersey Historical 
Commission. He also spent a year with the Thomas A. Edison 
Papers Project and 2 years teaching American history at Rutgers 
University doing his graduate study. He holds a bachelor's 
degree, a master's degree, and a Ph.D. in American history from 
Rutgers. Welcome.
    Our witnesses should know you each have 5 minutes for your 
spoken testimony. Your written testimony will be included in 
the record of the hearing. And when you all have completed your 
spoken testimony, we will begin rounds of questions. Each 
Member will have 5 minutes.
    Thank you for being here, and now we'll start with Mr. 
Fishman.

                TESTIMONY OF CHARLES N. FISHMAN,

        AUTHOR, ``ONE GIANT LEAP: THE IMPOSSIBLE MISSION

                   THAT FLEW US TO THE MOON''

    Mr. Fishman. Thank you. The Soviets launched the first 
spacecraft of any kind of course. That was Sputnik in 1957. The 
Soviets went on to launch the first animals in space, the first 
probe to the Moon, the first human being in space Yuri Gagarin. 
They launched the first female astronaut, the first spaceship 
with two people in it, and they did the first spacewalk with a 
cosmonaut leaving a spaceship.
    In the spring of 1961, President Kennedy had become 
frustrated with what he called ``one Soviet space spectacular 
after another.'' As he told his senior aides, ``Coming in 
second in space is the same as losing.'' Kennedy didn't think 
the United States should be losing. People and nations around 
the world didn't just think the Russians were challenging the 
U.S. in engineering and space technology; people thought the 
Soviets were better than the U.S.
    Kennedy asked for a plan not just to get ahead but to 
leapfrog the Soviets. His advisors agreed. The way to take the 
lead vividly and boldly was to take America to the Moon. 
Privately, before Kennedy announced the goal, NASA told him 
that the odds of making it to the Moon and back safely by the 
end of the decade were just 50/50. It was a bold plan but also 
a risky plan.
    Kennedy knew that simply announcing the mission, rallying 
Americans to that cause, would change the odds dramatically in 
favor of success. When President Kennedy said let's go to the 
Moon in May 1961, it was impossible. There was no rocket big 
enough to fly to the Moon, no spaceship that could land there, 
no computer small enough and powerful enough anywhere in the 
world that could fly a spaceship to the Moon.
    In just 8 years, NASA and the people working with NASA 
solved 10,000 problems. They invented space travel. They pushed 
the technological limits of everything from rocket engines and 
spacesuit design to computing and the management of a vast 
battalion of 410,000 people working toward a single goal. 
That's what it took to get to the Moon, the work not just of 
the astronauts, which is so well-known, but the work of 410,000 
people back on Earth for just 11 missions, more people working 
to get those astronauts to the Moon than were fighting in 
Vietnam for 3 years of the war. Going to the Moon was the 
biggest project outside of war human beings have ever 
undertaken.
    The results were more than spectacular. Every Moon mission 
was a success. Even Apollo 13, which was a near disaster, was 
turned into a success by the determination and ingenuity of the 
staff in mission control and the astronauts on the crippled 
spaceship. Apollo was in fact a government program that came in 
on time, on budget, scandal-free, and was a stunning, worldwide 
achievement.
    But here's the most important thing. Apollo was not a one-
off performance, a brilliant show to end the 1960s. Apollo's 
legacy is incredibly important, and we mostly get the legacy 
wrong. It has nothing to do with Tang and Velcro. The legacy is 
much richer and much larger than Apollo gets credit for.
    Apollo didn't end up launching the Space Age as it was 
imagined. It did something much more important right here on 
Earth. The spaceship computers that flew Apollo to the Moon 
were the smallest, fastest, most nimble computers ever created 
at that time. They not only did the job, they did it perfectly. 
Their development for the race to the Moon dramatically 
accelerated the digital revolution both deep inside the 
computer industry and across American society. The race to the 
Moon helped create the world we all live in today. Apollo 
changed the world by laying the foundation not for the Space 
Age but for the Digital Age.
    We got a lot more than digital technology from Apollo, of 
course. It transformed our scientific understanding of the 
formation of both the Earth and the Moon. It inspired a 
generation of young people to become scientists and engineers 
and computer programmers. And yes, it taught us to fly in 
space.
    The 50th anniversary of Apollo's first landing on the Moon 
should not be swaddled in nostalgia. It should be a moment to 
step back and reassess what we actually got from the Moon and 
appreciate it. Thank you.
    [The prepared statement of Mr. Fishman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. Dr. Miller.

                TESTIMONY OF DR. DAVID W. MILLER,

          VICE PRESIDENT AND CHIEF TECHNOLOGY OFFICER,

                    THE AEROSPACE CORPORATION

    Dr. Miller. Thank you for the opportunity to speak with you 
today about the technological legacy of Apollo. Many of the 
capabilities that we take for granted today had their roots in 
the investments that were made in the 1950s and 1960s to put 
humans on the Moon. For example, high-thrust yet fuel-efficient 
rocket engines made it possible to place large satellites in 
orbit.
    This in turn enabled worldwide data and voice communication 
networks, brought us GPS navigation, television broadcasting, 
Earth monitoring for land management such as agriculture, and 
weather monitoring to enable accurate forecasts. Capabilities 
such as wireless hand-held power tools; lightweight thermal 
insulation; foam materials to cushion against vibration and 
shock; advanced, lightweight, and high-temperature materials; 
inertial guidance and navigation; integrated circuits and 
microchips--you're going to hear these repeated today--and many 
nutritional additives either found their start in or their 
development was greatly accelerated by Apollo.
    While the list goes on, I'd also like to focus for a moment 
on the computers which, in 2019, permeate our everyday lives. 
Before Apollo, computers were used to perform mathematical 
calculations. They filled large rooms. This required us to go 
to the computers to use them. Apollo changed all that. Apollo 
was the first time that humans demonstrated that computers 
could come with us in our cars, in our homes, in our trains, 
and our planes, even on our laps and in our pockets. By Apollo 
demonstrating that digital computers could assist us on 
humanity's furthest journey, we realized that computers could 
assist us on any journey.
    But this did not come easy. The Apollo scientists and 
engineers needed to miniaturize these computers, which until 
then had only fit in rooms, to the size of 1 cubic foot. They 
coined the phrase software engineering. They invented the real-
time operating system. Unlike the operating system in your 
laptop which slows down as you ask it to do more, a real-time 
operating system maintains its speed by delaying lower-priority 
tasks.
    You may remember the 1202 alarm during the descent of 
Apollo 11's lunar module to the surface of the Moon. That was 
not a sign of a problem. Instead, it was a sign that this new 
and innovative operating system could reliably continue to 
execute a critical task even when it was asked to do more than 
it could handle. That's why the basic principles of real-time 
operating systems are still at the core of all the digital 
controllers in almost anything we use today, autopilots, cruise 
control, environmental control systems, power grids, medical 
devices, phones, internet, just about everything that defines 
our technological world.
    Apollo spacesuits were the first smart clothes with 
wearable technologies, first to have wired--wireless headsets, 
embedded medical sensors, and portable life-support systems 
that now benefit firefighters and other hazardous fields--
career fields. Flight simulators for commercial and military 
aviation are safe and cost-effective tools for pilot training 
that came out of the Apollo simulator program. Apollo married 
digital computers with engineering design methods to spearhead 
the field of CAD, computer-aided design, which is essential in 
designing almost every complex system that we design today.
    But perhaps the most important technological legacy of 
Apollo is the inspiration it gave to several generations of 
scientists, engineers to pursue STEM education and careers. In 
turn, these generations have developed entirely new industries, 
made groundbreaking discoveries, and inspired and educated 
subsequent generations not only in the field of space but many 
others.
    As an educator, I have firsthand experience in the power of 
inspiration. When it comes to space, the United States is the 
greenest pasture, and many of the brightest from around the 
world seek an education and follow-on career right here.
    To borrow a quote from Plutarch, ``The mind is not a vessel 
to be filled but a fire to be kindled.'' Apollo kindled the 
passion to take big strides to not back away from a daunting 
challenge but to instead embrace and tackle that challenge. 
This does not apply solely to space. It applies to all domains 
of intellectual effort. If we can put a human on the Moon, we 
can surely do anything we set our minds to.
    So while it's important to take pause and look back at the 
technological achievements gained through the original Apollo 
program, it's also important to consider the exciting next 
steps of lunar exploration and development will be even more 
challenging than Apollo. The scale of technological advancement 
is directly proportional to the length of the stride we choose 
to make.
    The next generation of lunar missions will require larger 
habitats with closed-loop life support systems, long-term 
radiation protection, telemedicine, autonomous operations and 
repair, the ability to independently generation--generate 
consumables such as food and water--basically live off the 
land--and do all this at a level of reliability, adaptability, 
and efficiency that will revolutionize what and how we do 
things right here on Earth.
    These requirements for operations on the Moon and beyond 
will drive a search for creative technical solutions and their 
inevitable terrestrial applications, surpassing those that 
we've seen in the Space Age thus far. Just as Apollo brought 
about substantial technical advancements, we should be excited 
about the future technology that would merge as a result of 
continued space exploration. In the words--because, in the 
words of President Kennedy, that goal will serve to organize 
and measure the best of our energies and skills.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Miller follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. Dr. Jakab.

                TESTIMONY OF DR. PETER L. JAKAB,

               CHIEF CURATOR, SMITHSONIAN NATIONAL

                      AIR AND SPACE MUSEUM

    Dr. Jakab. Chairwoman Johnson, Ranking Member Lucas, and 
the Members of the Committee, thank you for this opportunity to 
take a look back and consider the lessons of Apollo.
    As we reflect on the Apollo era and the extraordinary 
achievement of the lunar landings a half-century ago, it's very 
easy and quite appropriate to see them through the lens of awe, 
excitement, amazement, pride, inspiration, and perhaps 
humanity's greatest moment of unity. For those of us who can 
remember the bulky space-suited figures bounce-stepping on the 
lunar surface firsthand--and I'm among them--retelling the 
story still never fails to bring us right back to those 
exciting moments.
    For those who only know it know it through the stories, 
Apollo stands as a historical lesson and a powerful cultural 
milestone for what we can achieve looking forward. Simply 
stated, Apollo allows us to focus on who we are as a Nation and 
what humanity can achieve. But those first steps on the Moon 
are also a window onto the complexity of history and how 
historical events have many threads and interconnections.
    I'd like to share two examples about--one about technology 
and one about politics and diplomacy. It's often suggested that 
all sorts of new technologies emerged from Apollo and the Space 
Age in general, and in some ways that's true. We've here heard 
a few examples just a moment ago. In broad strokes, we can talk 
about how the space-based technologies have shaped our current 
lives. One need look no further than the satellites orbiting 
our planet to connect us and provide information we rely on 
every day. But this reality I believe does tend to give an 
impression that everything about Apollo technology was cutting-
edge and completely innovative.
    An interesting aspect of getting to the Moon was how much 
off-the-shelf technology was used and adapted. This was driven 
by one very powerful requirement: If you have people in a 
spacecraft traveling hundreds of thousands of miles away from 
Earth, everything has to work. There's little margin for 
troubleshooting a new technology on your way to the Moon. The 
safety of the astronauts was forefront--was in the forefront of 
everyone's thinking. Engineers working on Apollo tried to take 
advantage of proven technologies as much as possible to achieve 
the best chance of reliability.
    This context gives special significance to one 
technological choice that was critical to Apollo's success, and 
that was the decision to use the then-new technology of the 
integrated circuit for the vital Apollo guidance computer. 
Using integrated circuit--or the chip as we often call it 
today--will seem in retrospect an obvious choice. Size and 
weight is everything in spacecraft design, and these tiny 
wonders would seem a perfect application for this task. But in 
the early 1960s integrated circuits were largely untested and 
their reliability unknown. Using integrated circuits in the 
vital guidance system was a bold decision and illustrates that 
the path to success, especially a success as momentous as 
landing on the Moon, is never straightforward.
    In the end, the decision to go with the integrated circuit 
proved to be the right one. None of the Apollo missions ever 
experienced a hardware failure in the guidance computer. But 
the story doesn't end there. Spurred in part by the use of the 
integrated circuits in the initial Apollo spacecraft design, 
the industry took off and engineers quickly were cramming more 
and more components onto integrated circuits. Remarkably, the 
advancing technology moved so quickly there was no way to 
adequately test it for the computers on the later Apollo 
missions because of the concern for reliability that I just 
mentioned.
    But the breadth of other applications quickly spread, and 
by the 1960s--by the end of the 1960s an industry was in full 
spring, particularly in an area of California that soon came to 
be known as Silicon Valley.
    The Apollo program was not the sole reason for the 
transformation of Silicon Valley, but it was a major factor. As 
we enjoy the many electronic devices that enhance our lives 
today, we should recall the courage of the Apollo engineers who 
were audacious enough to choose a circuit made of a sliver of 
silicon to guide our astronauts to a safe landing on the Moon.
    Let me now turn to a very different part of the Apollo 
story. With a safe return of the Apollo 11 astronauts, the 
world embraced the achievement not just as an American 
accomplishment but one the entire world could take pride in. In 
the persons of Neil Armstrong and Buzz Aldrin, with Michael 
Collins orbiting close by, humans stepped on another world for 
the first time. Symbolically, as Armstrong so famously 
proclaimed, it was a giant leap for us all.
    President Kennedy's bold commitment to land humans on the 
surface of the Moon by the end of the decade had been 
fulfilled, and across the globe people felt a part of it. Yet 
as stunning a technological achievement as Apollo was, it is 
also important to understand the political dimension of the 
program as well. Made at the height of the Cold War, Kennedy's 
call to action had a significant political context. Landing on 
the Moon and doing so first was as much about making the 
political statement as it was about science and technology.
    After Apollo 11--after the Apollo 11 crew returned safely 
to the Earth, President Nixon instinctively grasped the value 
of Apollo beyond the science and quickly sought to leverage the 
diplomatic opportunities presented by the success of Apollo 11. 
After greeting and congratulating the astronauts on board the 
USS Hornet, Nixon began a 12-day 8-nation diplomatic tour of 
Asia and Europe called Moonglow to promote the spirit of Apollo 
and foster goodwill and international cooperation. This was 
followed shortly thereafter by a goodwill tour by the 
astronauts themselves visiting 30 cities around the world in 2 
months.
    The launch of Apollo was rooted in competition. The success 
of Apollo provided an impetus to focus on cooperation. Among 
other diplomatic overtures, the afterglow of Apollo was a 
factor in Nixon's efforts to open China and advance detente 
with the Soviet Union. However short-lived those successes may 
have been and limited in long-term effect, this foray into 
space diplomacy was not without consequence. That brief period 
of unity surrounding the success of Apollo had impact on Earth 
in ways unanticipated when the Saturn V rocket launched Apollo 
11 toward the Moon 50 years ago today. This is another example 
of how history illustrates the many complex threads of human 
endeavor.
    As we celebrate the thrill and inspiration of Apollo on 
this anniversary, let us also recognize the value of history to 
understand and illuminate the many layers of the past. Thank 
you, and I'll be happy to address any comments or questions you 
may have.
    [The prepared statement of Dr. Jakab follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. At this point 
we'll begin our first round of questions. And I'll recognize 
myself for 5 minutes.
    Mr. Fishman, can you set the stage for us? What was the 
environment in the late 1950s through the 1960s? What were the 
driving factors internationally and domestically leading to 
President Kennedy's proposing to go to the Moon, and how did he 
convince Members of Congress to go along with it despite a 
majority of Americans thinking it wasn't worth the cost until a 
brief moment after Apollo 11, according to the former NASA 
Chief Historian?
    Mr. Fishman. Sure. The context was set really by Sputnik 
and then by Yuri Gagarin. The Russians really did a whole 
series of space performances that got the world's attention. 
Sputnik of course was just a beach ball-sized satellite 
launched in 1957. Thirty days later, the Russians launched 
Sputnik 2, which contained the dog Laika and weighed 1,200 
pounds. So 30 days into the Space Age, they had a spaceship 
that had a capsule, a live creature in it, life-support 
systems, and a little TV camera beaming back pictures of the 
dog. Our plan at that moment was to launch a 25-pound 
satellite, and that didn't come for months.
    When John Kennedy became President, just a few months in 
they launched the first human being into space, Yuri Gagarin, 
and that had the same kind of galvanic effect across the world 
as Sputnik had. In fact, there were congressional hearings the 
day after Yuri Gagarin's flight. The head of NASA Jim Webb was 
called before Congress, and a--it was a bipartisan effort, and 
there was a lot of frustration. A Republican Congressman from 
Pennsylvania said to Jim Webb, Mr. Webb, tell us how much money 
you need. We will give it to you, words rarely heard in 
Congress.
    So when, 6 weeks later, President Kennedy gave what was--
what the White House called a second State of the Union 
Address, and as part of that, asked Americans to support going 
to the Moon, there was wide support very quickly.
    Just one point of reference, when Kennedy said in May 1961, 
let's go to the Moon, more than half of Americans had never 
been on an airplane yet, so he was asking Americans to fly to 
the Moon, and most Americans had never been off the ground 
themselves. So it was really a leap of leadership but also of 
frustration.
    Mr. Lucas. Madam Chair, could we ask our friends to pull 
those microphones directly in front of us since the good part 
of this is being able for us to hear you but also the historic 
record of what we're discussing here today, so line them up, 
guys.
    Chairwoman Johnson. Thank you. Dr. Miller, give us a little 
perspective of how you felt back during that time or where you 
were.
    Dr. Miller. Well, this is a little bit of a personal story, 
but I remember my mom would keep me home from school to watch 
the Gemini missions and the Apollo missions, and I remember the 
school would call and say your son's not getting an education, 
and my mom would read them the Riot Act.
    So I remember being 9 watching them land on the Moon and, 
you know, I think I was--well, I was old enough to know it 
wasn't magic, but I was young enough to not see any limits. And 
I found that very powerful.
    Chairwoman Johnson. Dr. Jakab?
    Dr. Jakab. [Audio malfunction.] With just the shirts on 
their back and a 2-year-old son arrived here in the United 
States and were able to start a new life here. I was born 
shortly thereafter. So for them, the United States' achievement 
of landing a man on the Moon had a very significant and 
powerful political context from which the Soviet-dominated 
society that they fled. So for them it was very much a--yes, we 
did beat the Russians, and they were very pleased about that. 
So I remember as a young boy what the Apollo accomplishment 
meant to people who the United States was their adopted country 
and the place where they sought freedom. And so Apollo had many 
dimensions, not just simply the tremendous technological 
achievement, but it had great powerful meaning for many, many 
people in many ways.
    Chairwoman Johnson. Yes. Thank you very much. My time is 
expired. Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chair.
    And, Dr. Miller, obviously you and I are the same age. I 
was 9 years old that summer, and July 1969 will ever be 
imprinted in my mind not just because of Apollo but because I 
had an appendectomy two weeks before the landing, so that's a 
really memorable month in my lifetime.
    Three of my four grandparents were born before Kitty Hawk, 
so as a kid, I can remember the discussion amongst the elders 
about was this real, was this cost-effective, but this was a 
generation literally that had been born before modern air 
flight.
    That said--and I address my questions to all of you, and 
whoever wants to speak can, but just from a perspective in your 
opinion each, what was the most significant impact of the 
Apollo missions? If you can grind it down, either, any, or.
    Dr. Miller. I think I captured in my statement and I would 
go back to, you know, it's that if we can have a mission that 
we believe in and we put the appropriate resources to it, and I 
think if we can show our trust and respect for the younger 
generation, which Apollo was, they could achieve extraordinary 
things. And I think we're seeing that today. You know, I think 
we're seeing that in these emerging commercial sector for 
launching satellites. They're hiring up my students like crazy. 
That's--it's no longer their grandparents' space program, it's 
their space program, and they're just catching fire. And I--
we're seeing it again, and I hope it stays.
    Mr. Fishman. I think it's important to appreciate that it 
was literally impossible when Kennedy said do it, and Americans 
love to be told something's impossible and then prove that it's 
possible. And the people--Apollo is often cast as a kind of 
heroic story, and in some ways it is, but there were no 
superheroes. There were just ordinary Americans. And in the 
last 4 years I've had the wonderful chance to talk to literally 
hundreds of people who worked on Apollo, and they will tell you 
that the mission got out of them a quality of work, a caliber 
of work that they would not have been capable of otherwise. So 
ordinary Americans like to be asked to do something that seems 
almost unachievable and then prove that it is achievable in 
service of a larger mission. And I think we have lost track of 
that a little bit, but we like to work together, and we like to 
rise to the occasion.
    Dr. Jakab. Speaking from the museum perspective, we're 
fortunate at the Smithsonian to be the custodian for the 
American people of the Apollo 11 spacecraft, the actual 
artifact that accomplished this mission that we've been talking 
about. And our museum, the Air and Space Museum is filled with 
many amazing objects. But I often say that the museum is the 
place where the hardware and the humanity intersect because 
every object that we have, every artifact that we have, 
represents people. Somebody designed it, somebody flew it, 
somebody maintained it, somebody formed a company to promote 
it, somebody worked in an industry to support it. It's really 
all about people.
    There's a famous story. It's probably apocryphal, but it's 
one of those good apocryphal stories that does make a 
meaningful point. During the Apollo era a custodial worker at 
NASA was asked, well, what are you doing? What are you doing 
here? And he said I'm helping us get to the Moon. And that--it 
still kind of chokes me up when I hear that because it really 
does say what is Apollo about. Apollo is about all of us 
finding what's the best in our self and applying it to a common 
goal. And if we can do that again, there's no limit to what we 
can achieve.
    One of my favorite quotes from Mark Twain was he said, 
``History does not repeat itself, but it does rhyme.'' And I 
think by reflecting on the anniversary of Apollo, perhaps we 
can induce it to rhyme for us and bring us to another 
achievement that we can celebrate again in the future.
    Mr. Lucas. In the time I have left I'd like to focus for a 
moment not just on the pieces that brought all this together 
but thinking about where we go and how important those same 
pieces are in the future, and again anyone that would care to 
touch on this. But when I went through and looked at 
essentially the contractors who played a significant role in 
the Apollo program, huge number, North American Rockwell, now 
Boeing, built portions of the command and service module, as I 
proudly noted earlier, in my home State of Oklahoma. Boeing 
also built the Saturn V rocket. Lockheed Martin, now Northrup 
Grumman, built the launch escape system. Rocketdyne, now 
Aerojet Rocketdyne, built the F-1 and J-2 rocket engines. 
General Dynamics built the communications transponders. Pratt & 
Whitney, now UTC, built the fuel cells. Northrop Grumman built 
the lunar module. Raytheon built the guidance computer. 
Honeywell built the environmental control system. Avco, now 
Textron, built the heatshield. Harris, now L3 Harris, built the 
telemetry systems.
    Looking back at how important that robust industrial base 
was to the success of Apollo, how important is a robust 
industrial base going to be for our future efforts because we 
don't have those kind of people to put the pieces together.
    Dr. Miller. So let me add to that that they also came under 
contract on the duration about--of weeks is how we--you know, 
they had to gear up. They had to gear up fast, and it all came 
together.
    But I think, you know, there's been a lot of consolidation 
in the aerospace field, and, you know, a lot of that knowledge 
is still out there. But I think what we're seeing now is the 
emergence of the commercial sector. And--you know, and that 
ties in with, again, it's really--it's really the younger 
generation that's going into these startup companies that are 
no longer startups. They're real. Because I've seen over years 
launch companies come and go, and here's just yet another, but 
no, that's all changed now. And they've demonstrated that they 
deserve a role in making this happen, and so I think that's 
where we're going to see these new capabilities come along.
    And I will add that it's essential that we--that as we do 
exploration, we have to bring the commercial sector along. Now, 
I'll use as an example Magellan. You know, he explored--
circumnavigated the globe or almost made it, but he did not 
operate the port he left from. He did not build the ships, he 
did not grow the food on his ships. Some part of the economy 
was used to do that. Once he was outside the edge of that 
harbor, he was exploring. Apollo, that edge of the commercial 
harbor was on the ground at Cape Kennedy. Right now, that edge 
of the commercial harbor is in orbit around Earth. So as NASA 
moves out further, they've got to pull the commercial sector 
because they cannot support the entire logistics trail.
    Mr. Lucas. Mr. Fishman?
    Mr. Fishman. I think one of the most exciting developments 
is SpaceX and Elon Musk and Blue Origin and Jeff Bezos, Robert 
Bigelow, Bigelow Aerospace. There is this whole wave of 
companies, private companies, that inspired in fact by that 
era, by Apollo, are doing things that we would never have 
imagined 20 years ago. And so there--the roster you read off is 
really impressive, and those companies still do impressive 
things. What's interesting is that in some ways the most 
dramatic innovation in rocketry is coming from SpaceX and Blue 
Origin. Those guys want to create what seems almost 
unimaginable now but a Southwest Airlines essentially of space 
travel.
    Jeff Bezos talks about launching every Thursday. If you 
don't get on the Blue Origin rocket this Thursday, it's going 
again next Thursday. There are only between 90 and 100 launches 
a year worldwide now. If Jeff Bezos is launching to space 52 
times a year in 5 years, that will be part of the 
transformation that sort of creates a space economy. And so 
there's going to be a role for R&D for the NASA side and a role 
for a space economy that is dynamic and innovative and also 
self-sustaining.
    Mr. Lucas. My time's expired. Thank you, Madam Chair, yield 
back.
    Chairwoman Johnson. Thank you. Dr. Bera.
    Mr. Bera. Thank you, Madam Chairwoman.
    This is an exciting time. I'm excited about the 
anniversary. I can't say I remember the Apollo 11--I was 4 
years old at the time-but growing up in Downey, California, 
home of Rockwell International at the heart of the Apollo 
mission, I remember the subsequent flights, remember the Land 
Rover--or the Moon rover I should say, you know, Skylab, 
Apollo-Soyuz, the Space Shuttle missions and the International 
Space Station, and it's remarkable. And, you know, we should 
take this opportunity, as we celebrate the 50th anniversary, to 
just remember what's possible, right?
    As all three of you noted, when President Kennedy 
challenged us, we no idea how we were going to go to the Moon. 
We didn't have the technology. We had to dream the impossible 
and then go out there and make it happen. And that is an 
important reminder for us today and for our children and the 
next generation that, you know, American ingenuity, American 
innovation, American know-how and inspiration can do anything. 
And it wasn't just an accomplishment for the United States of 
America. This was an accomplishment for all of humankind.
    And, you know, when we think about the challenges that we 
face, whether that's climate change, you know, food, water 
insecurity, we can solve all of these challenges if we put that 
issue out there. My colleague from Colorado is going to say we 
need to go to Mars by 2033. We can--he's got it right there. 
Look, if that's what we want to do, let's put it out there and 
let's challenge ourselves and let's then invest the resources, 
the ingenuity, inspire the next generation to make it happen.
    The other thing that we had during Apollo and when 
President Kennedy challenged us was this wasn't a Democratic or 
a Republican issue. This was an American challenge and an 
American opportunity and the institution of Congress worked 
together in a sustained, focused way across, you know, 
different Congresses and Democratic and Republican 
Administrations. And we've got to remember that. You can't keep 
changing your mission every 4 years because it is very hard to 
make those investments.
    We talked about, you know, some of the big companies that 
came off of this, but there's remarkable work already being 
done. You know, one company that I had a chance to go visit, 
Made In Space that is working out of Ames, they're looking at 
3-D printing in space and using the International Space 
Station. What they're doing is they're thinking about, well, 
how do you take Moon dust and the raw materials that are out 
there and use that to create the building blocks for, you know, 
a permanent--and that's going to have huge applications here on 
Earth as well.
    So, you know, maybe in the time I have remaining--you can 
tell I'm excited about this, but I'm excited about making sure 
our kids get that same inspiration that we all had when we were 
growing up and that we don't shy away from the impossible 
because it's easy to do what we know how to do. It's hard to do 
but necessary to do what we don't know how to do but that we 
want to do, and that's what we got to kind of get our mojo back 
as a country and a world and do this together.
    Maybe the three of you quickly can answer what's the most 
important thing we can do to inspire that next generation to 
believe in the impossible, and what would you like to see us 
doing as Congress? Maybe we'll start with Dr. Jakab. You can go 
ahead and----
    Dr. Jakab. Well, the first thing I would suggest is bring 
your children to the National Air and Space Museum and----
    Mr. Bera. I have.
    Dr. Jakab [continuing]. See the objects that were the 
products of the inspiration that we talked about in the 1960s 
and 1970s.
    But I think, again, the--speaking from the museum point of 
view, the objects speak to us. The objects have power.
    And one of the things that we try to do at the Air and 
Space Museum with these objects is not only to talk about the 
heroic stories of Armstrong, Aldrin, and Collins, but, again, 
the stories of the 400,000, all those who contributed. And I 
think one of the ways that you can inspire people, whether it's 
coming to the museum or seeing a film like ``Hidden Figures'' 
or something like that is for them to find themselves in the 
story. If you can see yourself or see someone that you can 
relate to in the story, then it becomes real. Then it becomes 
accessible. Then it becomes something, yes, I can do that. And 
then you can kind of latch onto the larger goal and be part of 
that. So I think a big part of how we inspire is having people 
find themselves in the story.
    Mr. Bera. Dr. Miller?
    Dr. Miller. The--you know, when I was growing up, I was 
dying for some way to get involved with space but all I could 
do was watch the movies and read the books and all that. And 
what I--we're in a different age now with small satellites, the 
International Space Station. I'm going to borrow a phrase from 
a colleague who now works at Blue Origin. Kids can now touch 
space. They can actually get involved. There are robotics 
competitions that middle school kids are doing on Space Station 
right now. There are science programs where you can take a 
photo of your hometown off Space Station. There are these 
things that you can interact--have your kids interact with 
also, you know, terrestrial robotics competitions, you know, 
that cover different areas of STEM.
    There's a lot of opportunity now if you look for them that 
your kids can get involved. And it's really supporting the 
pipeline starting in middle school.
    Mr. Bera. Mr. Fishman.
    Mr. Fishman. I would say that the most important thing is a 
sense of bipartisanship, clear goals, and the ability to move 
forward. Every President since Carter has laid out bold space 
goals, literally none of which have come to fruition in point 
of fact. And so that increases people's skepticism. OK, that 
was a spectacular speech and it would be lovely if we could do 
that, but then it doesn't happen.
    One of the questions I get asked sometimes is, why did 
what--why did the speech Kennedy give actually result in us 
going to the Moon but the speech that, you know, George W. Bush 
gave did not in fact get us to Mars by 2025? And one of the 
answers is that the Kennedy Administration had done its advance 
work, and they knew that on Capitol Hill there would be 
support. And they weren't just stepping up to the plate and 
giving a speech. There were saying we're all going in the same 
direction together. And so I think bold goals are really 
valuable, but pulling people along and making the case widely 
about why those bold goals will serve us, I think that's also 
important.
    Mr. Bera. Great. And we know ``Mars 2033'' fits on a bumper 
sticker, so maybe that's it. I'll yield back.
    Chairwoman Johnson. Thank you very much. Mr. Posey.
    Mr. Posey. Thank you, Madam Chair. And thank you for 
holding this hearing today. And I thank our witnesses for 
attending. It's been a great walk down memory lane. It's great 
to see an unusually high number of young people in the audience 
today, what I would consider young anyway. And I can remember 
being not much younger than most of them sitting in class when 
the big news of the day was President Kennedy's speech at Rice 
University, why go to the Moon? Great countries do things, he 
said, not because they're easy but because they're hard. And it 
inspired me and so many others of my generation. He was an 
inspirational President for sure.
    And I remember sitting at the desk in school and say, hey, 
you know, within 10 years, I want to put my fingerprints on the 
rocket that carries the first human beings to the Moon. And 
that was a prime goal for me as young man. And about five years 
later, you left off McDonnell Douglas, Mr. Ranking Member, as a 
big contributor to that space program. I was an inspector on 
the third stage of the Apollo rocket working for McDonnell 
Douglas.
    And I have to tell you that most of the people that worked 
on that program at the space center would have done the job for 
free. They were thrilled to get paid for it. But it was a time 
not only to advance the greatest technological achievement in 
the history of mankind but it was a time when Americans were 
united. And, as you all pointed out, they were all united 
behind the program. And people around the world respected us 
and were united with us for that. It was the days that summer 
referred to as the Camelot era where you respected the 
President even if you didn't vote for him.
    And so many of those times have passed, and I'm concerned, 
like many of the others that have spoken up about this before 
me about their experiences about the legacy for the young 
people that are going to follow us.
    We know that, you know, space is important to our economy, 
our economic well-being. We know it's important to our 
technological advancement. We know it's important to our 
national security, national defense. It's the ultimate military 
high ground. And I think we all know from hearings we've had 
here before, ultimately, it's responsible for the survival of 
our species.
    And so my question to the members of the panel is how you 
feel we can best continue the space legacy that was put forth 
with Apollo and inspire future young people and future 
generations of young people to follow?
    Mr. Fishman. I think one thing when you talk to space 
entrepreneurs at all levels, people who are actually starting 
to work in space, it's possible that there's not a great 
framework in place yet for those folks to do their work. And so 
maybe one thing Congress could be thinking about is if we're 
going to have a space economy and if there's going to be a lot 
of operators in the space economy, as there is, for instance, 
in the digital economy today, maybe there should be a framework 
in which they have a real sense of security and predictability 
about what the rules are, who can do what, that kind of thing. 
I'm not sure that framework has been updated really very much 
since the era of Apollo. They signed a really important 
international treaty in the mid-'60s so that, as the Soviet 
Union and the Americans raced for the Moon, we were clear what 
was going to happen there. We weren't claiming the Moon; we 
were visiting the Moon.
    And so when you talk to the folks who are doing this work 
now, there's a little trickle of curiosity and nervousness not 
about their own work but about the framework in which they're 
operating. And so it might be worth thinking about if we're 
going to have a vigorous space economy 10 years from now, what 
do we need to put in place now to make that possible and also 
secure.
    Mr. Posey. Yes, and it's so much a matter of dollars 
obviously. And someone mentioned earlier so many unfulfilled 
missions. We've had over two dozen missions to nowhere, over 
$24 billion that never reached fruition. Funding is a big 
problem. We used 4 percent of GDP back in the days of Apollo. 
Now, it's less than
1/2 of 1 percent. And the mission changes from Presidential 
Administration to Congress to Congress to Congress. I wish I 
had more time. Thank you, Madam Chair. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Lamb.
    Mr. Lamb. Thank you, everybody, for being here. And I 
wanted to kind of pick up where the last gentleman left off. I 
think the numbers I had were it was 4.5 percent of the Federal 
budget maybe as opposed to GDP. Do you know which one it was 
that we were spending on NASA back in the 1960s?
    Mr. Fishman. Of the Federal budget.
    Mr. Lamb. Of the Federal budget, OK, so still a major, 
major investment. And I think it's fascinating, Mr. Fishman, to 
talk about not just President Kennedy's speech but the fact 
that he actually put his money where his mouth was and made 
sure that we made this big investment and people kept making it 
throughout the 1960s and you clarifying that for us with the 
idea that we had 400,000 people massed around a single 
objective is just incredible and I think would be great today 
in this age where people worry about the future of work, where 
jobs are going to come from, how people are going to make good 
money and provide for their families with jobs. And I think 
most of the jobs we would be talking about for a space economy 
today and in the future would be pretty good-paying science-
oriented manufacturing industrial jobs.
    So I guess my question--and this is for really any of the 
three of you that wants to weigh in--is do we--in the 
combination today of Federal spending in the growing commercial 
industry of space here in the United States, do we have a 
similar level of capital investment to create those jobs and 
kind of create the size and strength of the space economy that 
we had in the 1960s? Between now it would be a balance of 
Federal and private investment. Does that exist or are we 
falling short of where we were back then?
    Dr. Jakab. Well, I think it's important to remember we tend 
to think of the Apollo era and up until the Shuttle era as 
purely a Federal program, that this--you know, NASA's 
government. But in fact much of the Apollo program was done by 
government contractors. The notion when we talk today about the 
new era of commercial space largely in the person of Musk and 
Bezos is really kind of misleading because there's always been 
commercial space. You know, the American industrial capability 
and research capability has always been part of it, and that 
was central to Apollo's success.
    So what I think perhaps we can productively do today is 
sort of recognize that government and private partnership is 
critical to success. It always has been. It is now, and it will 
be in the future. So I think if we can somehow frame our 
understanding of the past in ways--again, my phrase about 
history rhyming, I think obviously it would be very different.
    But of course the other component is, yes, the--President 
Kennedy made this, you know, very bold and dramatic statement 
and we kind of identify him with the enthusiasm for Apollo, but 
in fact he was not all that interested in space. It really 
became a significant component in the political context and the 
geopolitical context of the time.
    So I think, again, in terms of history rhyming, we have an 
era now where our economic competitors and partners sometimes 
are one in the same, and we need to somehow marshal a national 
understanding of our place in the geopolitical economy and how 
we can----
    Mr. Lamb. That's very helpful, and it's good to know. We in 
the Pittsburgh area where I'm from are proud that back then we 
had what is now known as Alcoa making the legs for the lunar 
lander, and we actually now have a new company spun out of 
Carnegie Mellon doing a lunar lander called the Peregrine, 
which is great.
    So I guess my question more, though, is about the size of 
the overall capital investment, which then spins off all these 
jobs and innovation. So yes, there were government contractors 
in the 1960s, but they were being paid by the government with 
money that we allocated and planned for and invested. So if 
either Mr. Fishman or Dr. Miller have anything to say on the 
size comparison, that'd be helpful. Thank you.
    Dr. Miller. Yes, I do have something to say. I don't know 
if it's about the size comparison, but I think the growth of 
the commercial launch is an interesting example. And I guess 
what I mean by commercial launch there is that we're letting 
those companies follow commercial practices and guiding but--as 
a government, we're guiding but not--don't have a heavy hand in 
how they do things.
    But an interesting thing that has happened is if the 
government can help these companies get a leg up because launch 
is hard and they can get more successful, they can start 
capturing other markets, which are not necessarily government-
paid-for like commercial satellite launches, bring them back to 
our shores, which we lost a while ago, and then they get even 
better, and then we're buying, you know, a really refined 
product from them. And that's a great model, I think one we 
ought to----
    Mr. Lamb. Thank you. And I'm out of time, so, Madam 
Chairwoman, I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Weber.
    Mr. Weber. Thank you, Madam Chair, and thank you for having 
this hearing. It's very timely for me. Last week, I had dinner 
with Jim Bridenstine, the NASA Administrator. I served four 
years in the U.S. House with him. So excited about the program 
and the possibilities going forward, so today's hearing is 
especially meaningful for me.
    Ranking Member Lucas had an exchange with Dr. Miller and 
Dr. Jakab?
    Dr. Jakab. Yes.
    Mr. Weber. Yes. And he asked them what they thought was the 
most significant impact. And as I thought about that, how do we 
define this impact? I've got a term that I think might be of 
interest. It's called American togetherism. Now, Dr. Bera, Ami 
Bera, before he left he said American institutions of Congress 
actually worked together. That in and of itself is a miracle. 
Can I get a witness? Come on. And so I thought, you know what, 
you think about that, it was eight days, three hours, 18 
minutes, and 35 seconds the mission was, and the whole 
collective world watched and was in awe of American 
togetherism. We need to get back to that. It was on display. It 
would not be the last time.
    I want the world to always know, if you'll pardon the pun--
there is space for American togetherism. We really need to 
remember that. It wasn't only a giant leap of mankind but also 
a giant leap of faith, but it was based on American 
togetherism, American technology, American know-how, and that 
spirit that we would do it no matter what. So perhaps we 
shouldn't call it the final frontier but the edge of the new 
frontier because the sky is the limit if you'll pardon that 
pun.
    So I want to know, there's a couple things that happened. 
Mr. Fishman, you said three things that you thought were 
necessary to continue this trek if you will. You said 
bipartisanship or what I call American togetherism. You said 
bold and clear goals, and you also said the ability to move 
forward I think if I'm quoting you right. Was that what you 
said in response?
    Mr. Fishman. Yes, sir. I think the third one would be to 
move forward consistently.
    Mr. Weber. To move forward consistently.
    Mr. Fishman. A couple Members have pointed out----
    Mr. Weber. That works right into my question. So I 
appreciated that. And, Mr. Fishman, you all said to Bill Posey 
here, my colleague that has left, in your exchange with him 
that we weren't claiming the Moon, we were visiting, something 
like that. Is that right?
    Mr. Fishman. Yes, sir.
    Mr. Weber. Do you think we ought to maybe make it our 51st 
State?
    Mr. Fishman. That would actually be illegal, sir.
    Mr. Weber. OK. Well, I'm just checking. I'm just checking. 
You bring up an interesting thought process there.
    The Apollo program served a single purpose, to land a crew 
on the Moon and successfully return them to Earth within the 
decade, which we all know we did with great pride and great 
joy. Follow-on plans by NASA were focused on building the 
shuttle to construct a space station that could serve as a 
waypoint for future exploration. We all know that history. As 
we saw after Apollo, plans get scaled back. There's that 
consistency you were talking about, Mr. Fishman, and 
capabilities are stripped away in order to save costs and 
maintain schedules.
    So here's my question. Are there any lessons that we should 
heed from Apollo that we should heed as we embark on the next 
chapter of space exploration? Dr. Jakab, I'm going to start 
with you.
    Dr. Jakab. I would say, again, we've talked a lot about 
common goal and focus and marshaling our resources toward a 
common goal, but I would perhaps modify one--in answering your 
question, modify one comment you said. Yes, the goal was to put 
humans on the Moon and all of that, but the goal was also to do 
good lunar science. And lunar science continues not only with 
current probes but also the data that was acquired during the 
Apollo era continues to be used to do lunar science. So our 
focus in these missions is not only a commercial one, not only 
one of sort of establishing America's prowess in space, but 
also to do good science and understand our universe. And I 
think that's----
    Mr. Weber. OK. I'm running out of time. So other than the 
National Air and Space Museum, I'm going to jump over here to 
Dr. Miller, how do we do that? How do we make that preeminent? 
How do we keep that in the forefront?
    Dr. Miller. I think the key thing is this time it's got to 
be to stay. There's a sustainment element which I think, as we 
learn how to do that, we can apply that directly to what we do 
here on Earth. I think that's a key piece.
    Mr. Weber. I think that's a plan.
    Dr. Miller. And I think that the--another thing we've got 
to get our--all intent aligned is imagining a day without 
space. I think it's hard for people to do it. It's out of 
sight, so it's out of mind. But just the things that you lose 
if for 1 day you shut it all off: Financial transactions, 
global data and voice networks, GPS, weather forecasting, 
farmland management, pollution and deforestation tracking, 
missile launch detection. All these things go away.
    Mr. Weber. Those are the accomplishments that we want to 
keep in the forefront.
    Madam Chair, I'm a little over time. I appreciate your 
indulgence. I yield back.
    Chairwoman Johnson. Thank you very much. Ms. Stevens.
    Ms. Stevens. Thank you so much. We've been doing a lot of 
talk about history today, and in fact, if it was 50 years ago 
today just 1-1/2 hours ago, we would have witnessed the rocket 
taking off. And it was as if humanity was taking first and new 
breaths, that we were being reborn as we were making our way to 
the Moon landing. And the entire world was in awe of this 
country.
    So I was born about 15 years after we landed on the Moon, 
and I'm not even necessarily thinking about myself. I'm 
thinking about those who were taking those first breaths today 
who were born 50 years after we landed on the Moon. So you get 
some history, backgrounds, some great scientific backgrounds. 
I'd like to ask each of you what you think our moonshot of the 
next 50 years is, be it an arrow or another technological area?
    Dr. Jakab. Well, I think one obvious moonshot type of 
project that we need to do is obviously climate--dealing with 
the climate. Our world is changing, and I don't put that in the 
context of good things or bad things. This--it's--the world is 
changing, it is having impact, and obviously that's something 
that affects the entire world. So if there's anything that the 
world could unify around is to developing solutions. And it's 
not a single bullet kind of thing that's going to, you know, 
doing something about climate change. It's addressing the 
impacts in broad ways that have not only economic but also 
geographic implications.
    And so I think looking retrospectively, we look at--you 
know, space allows us to look at ourselves, look at the Earth 
as well as looking out, and perhaps one way to advance our 
looking out is to look at--look back at the Earth.
    Ms. Stevens. Well, there's a psychology to it. And, you 
know, I'm from Michigan, and we know a thing or two about 
innovating in Michigan and changing the way people do things 
and transport things and connect to one another. And we implore 
ourselves in the body to ask ourselves this question, challenge 
the notion of what defines American greatness. And it simply 
codified within our great ability to innovate.
    And as my colleague from Pennsylvania brought this hearing 
in his questioning to the notion of jobs and future employment 
and technical workforce, I think we've got to ask ourselves 
about the return on investment (ROI) that a great new deal 
effort that in today's dollars is $600 billion. What else have 
we or could we invest in at that scale that would bring the ROI 
that we saw from the Moon landing not only to our psychology 
but also to our economy?
    Dr. Miller. You know, I think about--having spent 2-1/2 
years working at NASA, and the Technology Transfer Office was 
in my office, it was fantastic to see all the things how--not 
only the indirect impact of Apollo and all that but also the 
direct impact on today.
    Some examples, solar panels were built for space, and now 
they are perhaps one of the largest renewable sources of 
energy, huge terrestrial impact. There's a NASA Spinoff 
magazine which will list all these for you, but, for example, 
before some of the shuttle missions flew, in desert regions it 
was hard to find where water was, you know, during a 
humanitarian crisis. Now, based on NASA technology, we can find 
it, we can drill once and find it. We know where the water is 
in the desert, and 99 percent success rate.
    So these are--agriculture, when you--when the farmer wakes 
up today, they don't milk their cows first--maybe they do--but 
they actually log in. They can see to sub-resolution on 
individual fields where I need water, where I need fertilizer, 
where I might have an infestation. That allows us to apply 
resources much more judiciously, helps with sustainability. 
These are real things that are directing--that are impacting 
beneficially what we do on Earth right now due to what NASA 
does.
    Ms. Stevens. Mr. Fishman, do you want to chime in here? And 
thank you so much for your great contributions and your written 
words and your dedication to primary resources with your tech.
    Mr. Fishman. So just briefly, one thing that's important to 
distinguish, Thomas Paine, who was the Administrator of NASA at 
the moment that Apollo 11 was launched, said, you know--there 
were protesters at the launch site the day before Apollo 11 on 
July 19. The Reverend Ralph Abernathy led a group of protesters 
who said you're launching people to the Moon, but there are 
people in America who don't have enough to eat. How do you 
resolve that? How can you explain that?
    And it was an interestingly different era. The 
Administrator of NASA came out, he was at the Cape of course, 
and met the protesters. And he listened to them. And then he 
spoke to them and he said, you know, going to the Moon is 
different than solving the problems of poor schools or the 
problems of poverty and hunger. When we engineer a solution to 
get from orbit in the Moon to the surface of the Moon, it works 
exactly the same every time. Poverty does not work that way. To 
the protesters he said if we could not launch tomorrow and 
thereby solve the problems back on Earth, no one at NASA would 
push the button.
    And so I think it's important to appreciate that a quote/
unquote ``moonshot'' needs to operate in the context of the 
difference between engineering and social systems, which need 
their problems revisited every day.
    Ms. Stevens. Fabulous. Thank you, Madam Chair. I yield 
back.
    Chairwoman Johnson. Thank you very much. Mr. Baird.
    Mr. Baird. Thank you, Madam Chair. And thank you, 
witnesses, for being here today. You know it's exciting to me 
to be having this conversation about going back to the Moon and 
maybe beyond, and so that's very encouraging to me.
    I guess my question goes to all three of you. My alma mater 
is Purdue University, and in my district there are a few 
notable alumni that we like to take claim to, one of those 
being Neil Armstrong. But 50 years ago, the world united to 
witness and celebrate that giant leap for mankind when Neil 
Armstrong took the first step to the Moon.
    So when we return to the Moon in a few years, what do you 
think the impact will be? And I know some of you have already 
addressed that, but I would like to give you another 
opportunity. And then what additional advancements would you 
anticipate that we might find when we do that? You can start, 
anyone of you.
    Mr. Fishman. Well, I think one thing to remember, we've 
talked about clarity of mission in terms of going to the Moon 
in the 1960s, but there was also clarity of purpose. And so I 
think if the United States is going back to the Moon, I think 
one thing we need to be able to do is explain both to ourselves 
and to the public why we're going back to the Moon and what 
that will accomplish and what the next step after that is, 
what's the--not just here's what we are doing but to be able to 
make the case for why we're doing it and what value it has. And 
I think that's a really important element of the next stage of 
development.
    Dr. Miller. I think also Gene Cernan goes on that list from 
Purdue.
    Mr. Baird. Say again?
    Dr. Miller. Gene Cernan I think also goes on that list as a 
graduate of Purdue----
    Mr. Baird. Oh, yes.
    Dr. Miller [continuing]. So just checking. But, you know, I 
think--let's zoom back to the 1200s. Marco Polo opens up trade 
routes through China. I guess 1400s or 1500s Magellan sets out 
to circumnavigate the world. I'm sure there were a lot of 
people saying why are we doing this, you know, what a waste of 
resources, you know? But it changed everything. And so every 
time civilization has crossed a big river, gone over mountains, 
sailed the oceans, on average, you know, civilization has 
advanced.
    Space is the new ocean. We can't predict all the steps 
through it, but it's--we're--in 50 years I think the biggest 
thing is we're going to look back and say what took us so long 
because everything will have changed if we're willing to do the 
mission.
    Dr. Jakab. Just sort of following on that, you know, the 
quote that if I knew what I was going to find, we wouldn't call 
it research. And I think we always have made investments in 
things that we couldn't anticipate what the outcomes would be, 
multiple outcomes and so forth, so I think we somehow have to 
marshal a commitment to research.
    And, again, I think someone--one of the Members mentioned 
earlier about, you know, every few years the mission changes, 
but I think we need to somehow establish, independent of 
changing leadership and changing political establishments, that 
research and exploration always has a place in what we do and 
very much associated with a free society to pursue those goals. 
So that to me is the goal. How we do it is perhaps more 
complex.
    Mr. Baird. Thank you. And then, Dr. Miller, you mentioned--
and I have a background in agriculture, so when you talked 
about placement of fertilizers and chemicals and all that has 
been a tremendous advancement in the last decade. And a lot of 
that originated with some of the space program technology. Any 
other thoughts you'd like to elaborate or any one of you? I've 
got about 40 seconds, so----
    Dr. Miller. You know, I think the biggest impact is I know 
firsthand that there's a wealth of the younger generation that 
are pursuing degrees in engineering and science that just have 
a passion for space. And sometimes I think the most powerful 
thing I can do as a teacher is give them the resources and get 
out of their way. And I'm just amazed about what they're able 
to accomplish. So if we can get out of their way, all the 
better.
    Mr. Baird. Thank you. And I'm out of time and I yield back.
    Chairwoman Johnson. Thank you very much. Ms. Horn.
    Ms. Horn. Thank you very much, Madam Chair, and thank you 
to our witnesses on such an important and exciting panel. We've 
covered a lot of ground today, and I want to circle back to a 
couple things because ultimately we are both looking for 
inspiration and guidance. Those of us who were born after the 
Apollo era have experienced a different world thanks to the 
investments that we as a Nation and then bringing in other 
international partners have made. And the world that we live in 
today is fundamentally different than it would have been had we 
not made those investments.
    I think, Dr. Miller, to your point, basically everything 
around us from the phones we carry around to precision farming 
to medical technology to the way we live our lives is so 
utterly integrated into the follow-on technological 
advancements that came about as a result of Apollo that some of 
them were the results of the known unknowns, things that we 
knew we would have to develop; and others, the unknown unknowns 
that we had no idea would be follow-ons and would emerge. And 
we've seen this amazing investment both have scientific 
benefits but also technological benefits and spinoffs into 
private industry that found a way all of its own. And we're 
looking forward into the sustainability.
    And I also noted, as many of my colleagues did, Mr. 
Fishman, that one of the great things about space is that it is 
not a partisan issue, it is bipartisan, but the need for clear 
goals and the ability to move forward. And as we do that, 
because it has been 50 years since we first landed on the Moon, 
we are in a rebuilding and restarting period in this new 
exploration so the need to have a sustainable and clear pathway 
is critical.
    But one of the things Apollo taught us was the value of 
taking audacious and yet intentional risks. Because NASA's 
relentless pursuit of their efforts to go to the Moon but also 
to mitigate those risks and learn from the failures and the 
shortfalls through testing of anomalies and through repeated 
and iterative process was critical.
    So I'd like to ask the panelists, looking back at these 
audacious risks, how did the Administration and the public 
discuss this risk, and how did the public acceptability of the 
risks that we engaged in and how that has changed and how we 
can reengage this conversation with the public around risk?
    Mr. Fishman. Well, I think one of the most important 
moments in that whole conversation inside NASA and in the 
country was the Apollo 1 fire. In January 1967, the first three 
Apollo astronauts who were scheduled for launch were in their 
capsule. They were doing a rehearsal. There was a spark and a 
fire. The capsule was sealed. It was also poorly designed, and 
the astronauts died.
    There was investigation both inside NASA and in Congress. 
And in fact the conclusion was that the workmanship on the 
Apollo capsule but across the whole Apollo effort was pretty 
slapdash. Those three astronauts died most likely because two 
wires that shouldn't have been rubbing together were rubbing 
together and the insulation had rubbed off. They took a 
finished Apollo capsule and took it apart at the same time they 
were taking apart the one that had caught on fire, and they 
discovered the same kind of workmanship flaws in the finished 
capsule that hadn't been used yet.
    And the fire was a kind of dramatic shift in the culture of 
the Space Agency, a shift that really drove this idea of risk 
management. Things have to be done with incredible care if 
we're going to safeguard this mission, which is a little 
different than other things.
    And so I think the way NASA approached this at that time 
was to say this is the kind of mission in which one thing going 
wrong can put everybody at risk, but also we've got 400,000 
people who know that more vividly than ever before. And so I 
think that really impressed on people the idea that anything 
going wrong was a gift if it went wrong on Earth. If you tested 
it and it failed, that was information you needed to use. And 
before the fire, the Agency didn't have that kind of view. And 
to be honest, in the years after Apollo, I think space culture 
drifted in a different direction, in a kind of operational 
direction. And so understanding--letting the public understand 
the risk but also making sure that you're investing the right 
level of attention to manage it inside are really important.
    Ms. Horn. And I'm afraid I took up some time at the 
beginning, so we don't have much left, but I think the bottom 
line is attention to detail and risks and testing moving 
forward and understanding that space is always going to be hard 
and that we need that expertise moving forward as we return to 
the Moon and beyond. Thank you, Madam Chairwoman. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Madam Chair. And thank you to our 
distinguished witnesses for being here today to commemorate 
this incredibly important day.
    The cultural, political, and scientific impact that the 
Apollo 11 mission has had on our country is remarkable. The 
images of Neil Armstrong's first steps on the Moon are iconic 
and represent an important milestone not just in American 
history but in human history.
    I'm privileged to serve as Co-Chair of the bipartisan NASA 
Caucus here in the House with my fellow Ohioan Representative 
Marcy Kaptur and Committee Members Horn and Posey. The caucus 
was created to educate Members about the many diverse NASA 
initiatives and support NASA efforts to advance scientific 
research and technology. Being a part of the NASA Caucus is 
especially rewarding for me because of Ohio's unique 
relationship with the space program. Both Neil Armstrong, the 
first man to walk on the Moon, and John Glenn, the first 
American to orbit the Earth, are proud Ohioans. Additionally, 
northeast Ohio is home to the NASA Glenn Research Center, which 
focuses on developing innovative technology to advance NASA's 
missions in aeronautics and space exploration.
    I had the privilege of visiting a few months ago and have 
no doubt that the groundbreaking technology being researched 
and experimented with at NASA Glenn will help to shape the 
lives of Americans in the future.
    With that, Dr. Miller, in your testimony you discuss how 
the use of a portable computer was a novel idea at the time of 
Apollo 11 and virtually unheard of. The rise of the smartphone 
and Digital Age in Silicon Valley has rapidly changed our world 
so that a portable computer is now completely commonplace. We 
can debate whether that's a good thing. But as former NASA 
Chief Technologist, can you discuss some other notable 
scientific and technology advancements that NASA has played a 
part in and how they have helped to shape the lives of everyday 
Americans?
    Dr. Miller. Well, one thing I might--I should mention is, 
as Mr. Fishman was talking about learning that failure is not 
an option when life is at risk, the--and learning how to do--
how to really up our game on doing reliability and mission 
assurance and in fact that's an interesting thing in the--at 
Aerospace Corporation, that's a huge role that we do is learn 
from the lessons from Apollo and how to do mission assurance 
properly and bring that everything we do in space. And, you 
know, that's a very important sort of spinoff----
    Mr. Gonzalez. Yes.
    Dr. Miller [continuing]. That has had a vast impact on 
everything.
    Other--you know, one of the ones that surprised me is 
that--this isn't technology but it's something like 80 percent 
of baby formula today has an additive that was developed by 
NASA. The--every smartphone, which we probably all have that 
phone, is just these--you know, these things that were 
developed in order to make the crew more capable or robotic 
missions more lightweight and therefore could put more 
instruments on them, more capable, you know, all that 
miniaturization, low-power work, and the impact on health of 
astronauts impacts health of our people, the--those are all 
very dramatic impacts.
    Mr. Gonzalez. Yes, so for me personally the spinoffs are 
unbelievable. It's incredible, right? I mean, I think as an 
everyday citizen, you don't think about NASA as being in your 
smartphone necessarily or in baby formula.
    Dr. Miller. Right.
    Mr. Gonzalez. But when you look at everything that NASA has 
had an impact on, it's remarkable.
    Dr. Miller. Yes.
    Mr. Gonzalez. And I'm just thrilled that we have NASA in 
this country and in my home district.
    Dr. Miller. I was going to mention one of the things--I had 
worked with NASA for many years, but what really blew me away 
when I got there was its brand.
    Mr. Gonzalez. Yes.
    Dr. Miller. When I'd go internationally to speak, there 
would be packed auditoriums streaming to other auditoriums. 
It's just everyone comes out and wants to hear what NASA is 
doing. And the thing is that's a very strong element of 
diplomacy. You know, that NASA brand worldwide is second to 
none in my opinion.
    Mr. Gonzalez. Yes. Let me ask you this----
    Mr. Fishman. Can I----
    Mr. Gonzalez. Oh, sure. Go ahead.
    Mr. Fishman. I just wanted to say the week before the 
Apollo 11 launch, Fortune magazine did a cover story saying one 
of the great contributions Apollo has made to American society 
is big project management, that if you look at how NASA was 
able to manage prime contractors in all 50 States, 400,000 
people, and get the job done, it all fit together, it all 
worked, and it often had to work perfectly, that that 
management scheme is really important going forward. We have 
big things we want to do. Understanding how to do them without 
letting them run out of control is a really valuable lesson as 
well.
    Mr. Gonzalez. I think it would actually be really 
interesting to look at what the regulatory environment looked 
like back then and what the contracting process looked like 
back then and compare it to what it looks like today. I would 
bet that it's a lot harder today. I think that would actually 
be very interesting. I'm also out of time, so with that, I 
yield back.
    Chairwoman Johnson. Thank you very much. Ms. Hill.
    Ms. Hill. Thank you, Madam Chair, and thank you all for 
being here. I'm really excited about this.
    My district is the proud home to many Edwards Air Force 
Base employees and to a portion of the base. NASA's Fight 
Research Center at Edwards Air Force Base, which is now called 
the Armstrong Flight Research Center, made a number of 
contributions to the NASA human spaceflight program during that 
era, from the X-15 rocket plane hypersonic research program to 
the lunar landing research vehicle, both of which had a direct 
impact on the Apollo missions.
    The first flight of a lunar landing research vehicle was in 
1964 on Edwards, and these vehicles were later used at 
Ellington Air Force Base to train Apollo flight crew, including 
Neil Armstrong.
    On a personal level, I mentioned to you earlier, Mr. 
Fishman, that my grandfather worked extensively on the altitude 
control thrusters for the lunar lander. From 1961 to 1970 he 
worked on those and for--and I'm particularly excited about 
this hearing because of both of those connections.
    So today, I wanted to talk about some of the lessons 
learned from this previous experience. And a question that a 
lot of people ask me and I even wonder about myself, if we were 
able to do so much of this work in such a short period of time 
with the technology of so long ago, why is it so hard for us to 
even make partial progress on a similar mission today?
    Specifically, to all witnesses, in 1957 Wernher Von Braun 
and his team at the U.S. Army Ballistic Missile Agency, began 
the development of the heaviest lift ever built, the Saturn I. 
This included developing a brand-new F-1 Rocketdyne engine, as 
well as solving numerous engineering challenges. Following the 
establishment of NASA and the Presidential direction to go to 
the Moon, plans were made to use five of the F-1 engines for 
the first stage of the new human-rated engine that would take 
humans beyond low-Earth orbit (LEO), the Saturn V. It first 
launched in 1967 just 10 years after starting development and 
took humans to the Moon just a few years later. Saturn V 
remains to this day the most powerful rocket ever launched and 
can carry more payload to LEO than the envisioned SLS Block 1B.
    So how was NASA able to build the largest launch vehicle 
ever seen in a short and rigid timeframe and yet SLS is plagued 
by delays?
    Finally, what lessons from constructing this rocket can we 
apply to similar large-scale projects that we're attempting to 
do today?
    Dr. Miller. I was also going to add I think it was the F-
33, which is a--was a test plane at Edwards was the first plane 
to have digital flight controls right out of--and that's gone 
into other planes now.
    So back to your question, you know, I think--well, one of 
the things is NASA's at one-tenth the budget that it used to 
be, and there were other organizations like the early form of 
DARPA (Defense Advanced Research Projects Agency) that were 
involved in F-1 engine development and things like that, so 
there were--you know, we aren't at the same level of resource.
    The other thing is, you know, I think--I think NASA gets a 
lot of help from outside. It's a great Agency to work with, but 
I think, as people have been saying before, guidance, 
priorities, vision keeps changing. And it's changing at a pace 
that is faster than NASA can execute and even faster than the 
decade that Kennedy gave NASA back then with 10 times the 
resources.
    So, you know, I think the real solution is some combination 
of more funding but also give them a--give NASA a mission that 
we can all believe in and get out of their way.
    Mr. Fishman. Clarity of purpose.
    Dr. Jakab. Yes, I mean, I think we've said it in a variety 
of ways both in contemporary times and historical times. 
Clarity of purpose, clear mission, resources, and allowing it 
to happen. I mean, it's perhaps a little simplistic formula, 
but sometimes, you know, the simple way is----
    Ms. Hill. Yes, Occam's razor. I come from the nonprofit 
sector, and what you're describing sounds a strategic plan, so, 
you know, maybe that's something to work on. And clearly, you 
can't do that without the direction that has to come from 
Congress and from the Administration.
    Another thing is that one takeaway I have in talking with 
my grandfather is how much of a catalyst this work is for 
national pride. The moonshot gave Americans something to 
believe in, and that belief paid off in the enduring impact 
you've talked about into scientific discovery and 
groundbreaking commercial applications.
    But I also think of how badly we need unity as a the 
country right now. And a big part of the push around space 
exploration in the past had to do with the cold war and the 
sense of an immediate and deadly threat. If people don't 
believe that we face such a threat right now, can we still 
achieve that national pride and unity and prioritization if we 
don't--you know, 10 times the resources had to do with 
believing that this at least was in part a national security 
defense investment.
    Mr. Fishman. I would just say the point of going to the 
Moon wasn't unity. The sense of national pride and worldwide 
pride came as we achieved it. And so I think that's important 
to remember. It was born as a Cold War tactic, but by 1969, by 
1972 it had actually--the mission itself had become something 
different that we don't think--we don't look at Aldrin and 
Armstrong, we don't look at the guys driving around in a lunar 
rover and think there they are beating the Russians. We think, 
wow, what an incredible achievement.
    And so I think getting the mission right and the mission of 
NASA itself right comes before hoping that people will then 
unify behind that. I think the right mission does unify people 
rather than the other way around.
    Ms. Hill. Thank you so much. I know I've exceeded my time.
    Chairwoman Johnson. Thank you. Dr. Babin.
    Mr. Babin. Yes, ma'am. Thank you, Madam Chair. Thank you. 
We appreciate you expert witnesses.
    It's funny that you mentioned--I think it was you, Mr. 
Fishman, mentioned the vision a while ago or maybe it was 
Katie, I don't remember, but over here on the right on the wood 
panel there is Proverbs 29:18, and it says, ``Where there is no 
vision, the people perish.'' And with the right vision, which 
we had for Apollo, I think we can do that again. And so I think 
it's very important that we have a vision when we think about 
returning to the Moon in the future, in the hopefully not too-
far-distant future.
    Really some interesting things I want to tell each and 
every one of you. Thank you so very much. You know, 50 percent 
of Americans did not think it was worth the money to go to the 
Moon back 50 years ago. And then we've heard all morning about 
the just list after list, I think 6,000 innovations, inventions 
that we've derived from our space program that we use every 
single day, and so I think it's very, very important that we 
have a future endeavor like 2024.
    But I proudly represent the Johnson Space Center (JSC) in 
Houston and serve as the Ranking Member of the Space and 
Aeronautics Subcommittee. And Johnson was home to NASA's 
mission control center, as all of you know, and played pivotal 
roles in the Apollo program. And from the first landing on the 
Moon by Apollo 11 to the expert troubleshooting of Apollo 13, 
JSC mission controllers were centerstage for history.
    Can each of you take just a few seconds and discuss the 
unique capabilities and accomplishments of NASA's mission 
control and the importance of developing a skilled cadre of 
flight control professionals? We'll start over here, Dr. 
Miller, you can go ahead and go first. You were quick on the 
draw.
    Dr. Miller. Jumping at the mic, sorry. I'm going to fast-
forward to mission control today. I want to point out something 
that I think a lot of people may not see in terms of mission 
control and operation of the International Space Station. We've 
got--it's an International Space Station. We've got allies, 
we've got colleagues. It's really a--keeping that multinational 
consortium together, and a lot of that is done with mission 
control and the handoffs with Roscosmos and with JAXA and ESA. 
That is politically amazing to me.
    Mr. Babin. Right.
    Dr. Miller. And I think when we developed this vision, this 
idea of helping to lead our allies and our other spacefaring 
nations on this mission I think could really pay a lot of 
benefits to us. Like maybe not a lot of people know that the 
MOM (Mars Orbiter Mission) mission, which was the Indian 
mission to Mars, they're one of four countries I think that 
have successfully orbited Mars. And, you know, that kind of 
leadership that the U.S. has played I think is a very important 
part. It's--that's beyond the technology but I think is--should 
be absolutely part of the vision.
    Mr. Babin. All right. Thank you. Thank you so very much. 
I'm going to skip to the second question. JSC is also home to 
the Lunar Sample Lab Facility. Can you explain why this 
facility was so important for the Apollo missions and how it 
will be used for our return to the Moon, one of you there? Dr. 
Jakab.
    Dr. Jakab. As I alluded to earlier, lunar science is also--
you know, was a critical component of that, and we still have 
many lunar science missions going on, lunar reconnaissance 
orbiters, and others, as well as international efforts to do 
that. Again, exploration is as much about looking forward as it 
is about looking back and understanding origins of the Solar 
System and where our species came from and all of those large 
questions.
    You know, we look at the space telescope and the near-term 
coming launch of the James Webb Space Telescope, and those are 
time machines. You look out into space----
    Mr. Babin. Right.
    Dr. Jakab [continuing]. And you see history. So I think 
it's important to understand that the--in terms of lunar 
science, not only the samples that we have from that time 
period, which are still vital resources for planetary sciences 
and research, continue to be of value. So while we talk about 
inspiration and exploration and human spaceflight and those 
components, which are critically important to stimulating all 
the things we've talked about, the scientific mission is still 
paramount.
    Mr. Babin. Thank you. I want to get in one more question 
here before the end. We think of Apollo as a success, but up 
until Apollo 11, we trailed the Soviet Union in almost every 
accomplishment in space. Competition fueled our national 
ambition, as Mr. Fishman had said a while ago. What if anything 
drives our current space program? Are there any similarities 
between the Soviet Union of the 1960s and the China of today? 
Would one of you all like to answer that?
    Mr. Fishman. I think the rivalry then was much more vivid 
and acute. One of the things that's really true is that the 
Chinese people and the Chinese government is very good at 
laying out an 18-year plan and then actually doing year 1, year 
7, year 11, and year 17. In America, we lay out in 18-year 
plan, do nothing for 15 years, and in year 16 we say, whoa, we 
better get started. So the rivalry is different.
    I think one useful thing is to pause and imagine what 
would've happened if the Soviet hammer and sickle had been the 
first flag on the Moon and how that would've made not only us 
feel but the whole world. That was a banner of authoritarianism 
and oppression. And so I think it's--one way to think about 
rivalry in space is to imagine what would happen if great 
achievements are done by nations that the United States 
considers its rivals when we could have done them but simply 
elected not to?
    Mr. Babin. Well-stated. Thank you, and I yield back, Madam 
Chair. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. McNerney. 
Oops, Mr. Tonko.
    Mr. Tonko. Thank you, Madam Chair.
    It's an honor to mark the 50th anniversary of the Apollo 11 
mission. I was in school when Sputnik traversed America's night 
sky and inspired our race into space. It was American 
engineering, science, and pioneering resolve that went out 
against our Soviet rivals and put the first human footprint and 
American footprint on the surface of the Moon. In those years 
of striving and investing and innovating transformed the world 
of science, technology, engineering, and math with America 
leading the way.
    As one of the 650 million viewers who witnessed Neil 
Armstrong's first steps on the Moon, I am forever affected by 
the memories of that day. It inspired me to see that, with 
vision, resolve, and essential resources, America can always 
lead the way in exploration, research, and development. The 
only question is whether or not we will.
    Like so many fans of America's push into space, I'm excited 
about the upcoming launches of the Mars 2020 rover and the 
James Webb Space Telescope. Even more, I am excited by the 
impact these missions will have on the leading edge of so much 
scientific discovery continuing to engage the public and 
inspire a new generation of scientists and engineers.
    And I often tell students in our New York Capital Region 
that learning STEM can make you a scientist who learns about 
secrets about our universe, maybe the astronaut who lands on 
Mars or the doctor or researcher who makes healthy passage on 
long spaceflights possible, or an engineer who invents the new 
technology that paves the way for space travel that will take 
us far beyond the boundaries of our own galaxy. We must 
continue pushing for America's innovation and exploration with 
the same determination that brought our astronauts to the Moon 
50 years ago.
    Now, to reflect on that historic moment when the world held 
its breath and Neil Armstrong took that first step, let us 
remember that it falls to us to build on that scientific legacy 
and to do everything we can to foster ingenuity and discovery 
now and for generations to come.
    So, Dr. Miller, how could the innovations that brought 
Americans to the Moon that, 50 years ago, still contribute to 
discoveries that will be made by future generations of 
scientists?
    Dr. Miller. Well, I think it's happening right now. I'm 
glad you mentioned a lot of the accomplishments that are going 
on in the Science Mission Directorate at NASA. I mean, there's 
been a wealth of innovation there that has led to very dramatic 
discoveries.
    You know, we know the--it was a great accomplishment for 
the Chinese to land on the far side of the Moon, but we got to 
remember, the United States was the first to every planet 
except for our own--that was Sputnik--but all--and even Pluto. 
And in fact, we have multiple spacecraft that have departed the 
Solar System. James Webb is going to look back to first light 
in the universe. I mean, these are amazing accomplishments.
    I'll give you another example. The exo-solar planets that 
are--that we're finding, the exoplanets, when I was in school, 
there were nine planets. Then I went down to eight. It's going 
in the wrong direction. And now it's 4,000 and counting 
dramatically. And we're starting to see all kinds of ways in 
which solar systems can evolve. And that informs us about our 
own Solar System.
    There is so much richness in all the various things that 
NASA does even in--on the aeronautics site as well that, you 
know, there's something for everyone.
    Mr. Tonko. Well said.
    Dr. Miller. And it's great to see that.
    Mr. Tonko. Mr. Fishman, the lunar descent and landing were 
an extremely intense time. There were alarms going off and Neil 
Armstrong, the commander, had to take manual control over the 
landing. At one point his heart rate was, I believe, 150 beats 
per minute. Can you describe just how close Apollo 11 was from 
failing to reach the Moon's surface safely and the planning and 
designs that made it successful?
    Mr. Fishman. It took 13 minutes to get from orbit to the 
surface of the Moon. The first 3 minutes went great. The last 
10 minutes were a cascade of problems. The problems might have 
prevented Armstrong and Aldrin from landing successfully. They 
had to find a new place to land because the landing site turned 
out to be a 60-foot-deep crater with boulders the size of cars 
at the bottom. They were worried about running out of fuel. 
They were burning through 1,000 pounds of fuel every 30 
seconds. And then the computer started announcing that 
something was wrong in the spaceship.
    It turned out that the computer was working perfectly. It 
was receiving errant signals from another part of the 
spaceship, and the alarm, it was sounding literally meant I am 
doing my job just fine. Some other part of your spaceship isn't 
working right. You should check that out.
    And I think Armstrong and Aldrin--at one point the computer 
screen in the lunar module went blank for 10 seconds. They were 
only 1,000 feet from landing. Armstrong and Aldrin never 
mentioned that until they were back on the aircraft carrier in 
the Pacific Ocean. Imagine the dashboard of your car going 
blank at a critical moment like that.
    And that's what it's like to be an astronaut. There were 
big problems, but they had trained, and they also had the kind 
of character that sort of--they said--Armstrong said later 
there was a lot of chatter about whether we were going to board 
or not. Let me be really clear. We were putting that ship down 
on the Moon, so----
    Mr. Tonko. Well, thank you. I think it's important for us 
to salute that character this week as we celebrate that 50th 
anniversary. And with that, Madam Chair, I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Olson.
    Mr. Olson. I thank the Chair, and welcome to all of our 
witnesses.
    As a guy who grew up about a mile and a half from the 
Johnson Space Center, Apollo 11 has a very special place in my 
heart. We all know it started at Rice University, my alma 
mater, September 12 of 1962. President John F. Kennedy, first 
of all, he popped Rice. He asked, quote, ``Why, some say, the 
Moon? Why choose this as our goal? And they may well ask why 
climb the highest mountain? Why fly the Atlantic? Why does Rice 
play Texas?'' end quote. That last question has never been 
answered since 1962.
    But he also said, ``We choose to go to the Moon. We choose 
to go to the Moon. We choose to go to the Moon in this decade 
and do the things not because they're easy but because they're 
hard.'' You mentioned Apollo 11's descent. They were less than 
10 seconds away from running out of fuel and having to abort 
that mission. Apollo 12 was hit by lightning on ascent. We all 
know about Apollo 13. And Apollo has been such the inspiration 
not just for Americans but to the entire world.
    My question is about how can we learn, first of all, we 
have talked about STEM. That's cool. That's very valid. I mean, 
people got excited. I saw that firsthand living there. We had 
engineers just pouring in from all across the world getting 
involved in going to the Moon and beyond. But what impacts did 
Apollo 11 have on other spinoffs, Mr. Fishman, came from Apollo 
11 that's helped the world right now that we should celebrate? 
And not Tang or Velcro.
    Mr. Fishman. I think what we've tried to say here today is 
that space is integrated into the way we live. Dr. Miller said 
imagine a day without space. Well, you couldn't run a farm, you 
couldn't run your email, you couldn't get a weather forecast. 
You know, Walmart tracks its trucks using satellites every 
minute of every day.
    And so I think what the race to the Moon did was accelerate 
a digital economy that is the U.S. economy today. And so the 
question is--but no one said in 1965 if we go to the Moon, all 
this other stuff will happen on Earth.
    Mr. Olson. Yes.
    Mr. Fishman. And so I think in some ways one of the most 
valuable lessons is that a stretch goal of this sort, which 
seems almost impossible, creates in its wake not just the 
achievement of that goal but all kinds of other accomplishments 
and, as Dr. Jakab has said, incredible breakthroughs in just 
understanding how the world works, which are invaluable.
    Mr. Olson. And also how the human body works. Dr. Miller, 
do you want to add anything about the benefits of landing on 
the Moon, the Apollo missions?
    Dr. Miller. You know, when Mr. Fishman was just talking 
there, it reminded me of some car ad where they said it's not 
the destination, it's the ride, it's the trip. And--did I get 
that right? And, yes, you don't know what's going to come out, 
but I said in my comments that really the amount of innovation 
you're going to see is proportional to the length of that 
stride you're going to make. So if we just do little things, 
we're going to have some modest innovation. I think we got to 
take big steps, big strides like we did in the 1960s.
    Mr. Fishman. Let me add one point.
    Mr. Olson. Sure.
    Mr. Fishman. You know, the ability to launch inexpensively 
right to low-Earth orbit, right now, every square foot of 
landmass on the Earth is photographed every single day by a 
private company, by planet.org. They're using small satellites, 
and they literally photograph the Taj Mahal and the Capitol of 
the United States and Cape Kennedy every single piece of land--
--
    Mr. Olson. Johnson Space Center.
    Mr. Fishman. Johnson Space Center, any place you want to 
name. Every single square foot of landmass on Earth is 
photographed every day. That's how we know what the North 
Koreans are up to, not because of the NSA or the CIA but 
because photograph the ports and the nuclear sites and the rail 
yards and the truck parking lots. We photographed them 
yesterday, we photograph them today, we photograph them 
tomorrow. That innovation is possible because launch costs have 
come down.
    And so as the space economy gets going, you're going to see 
this incredible blossoming of innovation because people will 
start saying what if we do this, what will be the wonderful 
consequences? And so I think enabling that kind of innovation 
is really important.
    Mr. Olson. And I'm out of time. I'll submit questions for 
the record about AI, and its role in going to Mars and beyond. 
But thank you, thank you, thank you. And I'll close by saying, 
as I said when I was a 7-year-old boy, fly me to the Moon. I 
yield back.
    Chairwoman Johnson. Thank you very much. Mr. Perlmutter.
    Mr. Perlmutter. Gentlemen, thank you for your testimony 
today. And, as you can see, we're all loving this. The three of 
you actually gave me goosebumps, and I want to talk about a 
fourth person who testified a few weeks ago for us. But, Dr. 
Miller, you were talking about the ownership and the engagement 
of young people and the ability to take advantage of those 
brilliant youthful minds.
    Mr. Fishman, you talked about the inspirational component 
of all of this and the striving to go beyond, you know, where 
we'd been before.
    And, Dr. Jakab, you talked about the teamwork. I mean, I 
did get goosebumps as you were talking about the apocryphal 
janitor helping get us to the Moon. And that's what this is 
about.
    We talked about the tangible results in all the spinoffs, 
and we talked about the intangible a lot as part of the piece 
that brings Democrats and Republicans together to do something 
bigger than any of us, a lot bigger than any of us.
    We had a young woman who came in and testified a few weeks 
ago. She had the brilliance to knit together thousands of 
signals taken from all around the world to draw the black hole. 
And she was inspirational, just as you gentlemen are, in 
testifying to us to really try to find the ability of this 
Nation to do something bigger again.
    Now, you know, Ami Bera was joking around, but I've been 
very single-minded in terms of a bigger mission, one that 
requires consistency of purpose and direction and ingenuity. 
There's an element of competition. You know, we've talked about 
rivalry or national security or whatever between the Russians 
and America back then, but we have that element today.
    But I see this as being something that's going to be 
international in scope, public-private in nature, and, you 
know, if we can get our--when we get our astronauts to Mars by 
2033 if not earlier, it's going to take the whole world to do 
it, and it's going to take a lot of private effort as well but 
led, in my opinion, by NASA because of its brand and its 
unbelievable staff.
    So I'm just going to turn it--I have no idea what you guys 
are going to say, but what do you think about getting to Mars 
by 2033?
    Dr. Miller. Well, one thing I'll mention is that's--I'm 
sure that's why you put that on there because 2033 is--it's not 
easy to get to Mars, but that's one of the easiest times 
relative to----
    Mr. Perlmutter. Right, because the orbits are closest----
    Dr. Miller. Right.
    Mr. Perlmutter [continuing]. For a long time.
    Dr. Miller. Yes. Yes. And so, you know, I think what always 
helps with the space program is a sense of urgency. And, you 
know, it's good to have deadlines as long as they are deadlines 
that we can reasonably make and we can put the resources behind 
them and so forth. And, you know--so I'm all in favor of 2033.
    Mr. Perlmutter. Mr. Fishman, what do you think----
    Mr. Fishman. Well, you----
    Mr. Perlmutter [continuing]. As a historian and a writer?
    Mr. Fishman. You said something interesting. You said it 
will take the whole world. If you go back and look at John 
Kennedy's speech in May 1961, the first go-to-the-Moon speech, 
there's a wonderful passage at the end where he says if we 
succeed in putting an astronaut on the Moon by the end of the 
decade, it will not be that astronaut who went. It will in fact 
be all of us in America because, if we're going to do it, it's 
going to take us all. We've heard from the janitor.
    The spacesuits were sown by hand. The circuitry in that 
advanced computer we've talked about was woven by hand because 
there was no other way of manufacturing it. And so you said it 
will take the whole world. I think Mars is the kind of project 
that will take the whole world. There are not many countries 
that could galvanize that kind of project, and that would be a 
different undertaking than Apollo. But I think the idea that 
getting everybody on board is a really good one, and it's an 
echo of what Kennedy said in May 1961.
    Mr. Perlmutter. Dr. Jakab--and I do want to acknowledge my 
friend the former Governor of Florida because after he listened 
to the three of you testify, his one-word was inspiration. But, 
Dr. Jakab.
    Dr. Jakab. Well, I think when we talk about getting to Mars 
or other bodies in the system and identifying that as a goal, I 
think what it also reflects is not just one mission, but it 
talks about a presence in space. It talks about, again, 
bringing humanity's curiosity and humanity's research 
capabilities beyond our planet.
    You know, we're already on Mars, of course, with the 
rovers, and we're learning extraordinary things. And that's 
laying a foundation for a human mission to Mars in some ways. 
So I think it really kind of represents not just we're going to 
get to Mars, and we accomplished it, which, to some degree, you 
can say about Apollo. We had that specific goal, and we 
accomplished it and we sort of moved on in a lot of ways. But I 
do think getting to Mars probably will represent a human 
presence in space that--where we will finally become truly a 
spacefaring nation when we accomplish that goal. So I think 
it's reflective of Apollo, but I also think it is a beginning 
of a different orientation of humanity in space.
    Mr. Perlmutter. Thank you very much.
    Chairwoman Johnson. Thank you very much. Dr. Foster.
    Mr. Foster. Thank you, Madam Chair.
    For almost all scientists my age, you know, I grew up with 
the Apollo program. I remember in sometime around second or 
third grade we would stuff tin cans full of cotton balls soaked 
in rubbing alcohol that we scored from my neighbor's mother's 
supply of that, and we attempted to build rockets that did a 
pretty good job of burning down on the launchpad and not much 
else. You know, we didn't really understand the need for 
carrying oxidizer.
    Later on, I built and operated Estes model rockets of the 
Gemini Titan, you know, mission. And by the time of the landing 
in 1969, I was 14, and I had spent many, many hours studying a 
book on looking at different mission options and calculating 
all the parameters for different mission options of the Apollo 
program. And, you know, for example, why the first stage of the 
Saturn booster was kerosene liquid oxygen whereas hydrogen--
liquid hydrogen, liquid oxygen were the second and third 
stages, that sort of thing. At the time I didn't yet know 
calculus, but I did understand, you know, the rocket equation 
and Delta V and looked at all the Delta V and mission and 
payload requirements for all the different things that had been 
considered.
    And even then I understood the crucial importance of what 
became the lunar orbit rendezvous, in making it possible to 
deliver on John Kennedy's promise of landing a man on the Moon 
within the decade.
    And so today, I'd like to use my time to honor John 
Houbolt, a native of Joliet, Illinois, in my district, who was 
one of the great unsung heroes of the Apollo program. I was 
pleased to see, Mr. Fishman, on page 235 of your book and the 
pages following, you do justice to his contribution, so thank 
you for that.
    Dr. Houbolt provided this crucial engineering concept of 
lunar orbit rendezvous that made the success of the Apollo 
program possible. Without it, the Saturn booster would have to 
be two times bigger or you'd need multiple of them. And it 
would not have been possible to meet John Kennedy's goal of 
landing within the decade.
    John Houbolt came from humble beginnings, working 16 hours 
a day on his family's dairy farm in Joliet, Illinois, where he 
developed an early interest in aviation, building model 
airplanes in his free time. He graduated from Joliet Township 
High School and Joliet Junior College, obtained a bachelor's 
and master's degree from the University of Illinois in civil 
engineering and went on to obtain a Ph.D. and serve as an 
engineer at NASA Langley.
    His contributions to the U.S. space program in the 1960s 
were vital to NASA's successful Moon landing. He's best known 
for his advocacy of lunar orbit rendezvous, the crucial mission 
decision that proved essential to carry the Apollo crew safely 
to the Moon and back in 1969. Dr. Houbolt, along with several 
of his colleagues at Langley, became convinced that this 
relatively obscure technique was the only feasible way to land 
on the Moon within the decade. And despite opposition from NASA 
and other leading rocket scientists at the time, Dr. Houbolt 
tenaciously advocated for lunar orbit rendezvous.
    It was simply not possible with the engines and boosters 
that could plausibly be developed in the 1960s to launch a 
payload that would allow a manned rocket to land in its 
entirety on the Moon, including all the fuel necessary to get 
back to Earth. But as John Houbolt pointed out that if you left 
the fuel for the return trip in lunar orbit and rendezvoused 
with the command module after making the landing, then a single 
Saturn booster already under design at Marshall Space Flight 
Center could do the job. NASA Administrator George Low later 
said of this pivotal moment, ``It's my strongly held opinion 
that without the lunar rendezvous mode, Apollo would not have 
succeeded.''
    And so I just wanted to say how much I appreciate, you 
know, seeing in your book, Mr. Fishman, you know, the proper 
due there.
    The lunar rendezvous mode has been described by space 
historians as Langley's most important contribution to the 
Apollo program, and it's widely credited with allowing the U.S. 
to succeed at President Kennedy's goal.
    Dr. Houbolt was often known as a voice in the wilderness or 
sometimes the ``rendezvous man,'' as you point out in your 
book, and his persistence and the professional risk that he 
took, you know, ultimately were crucial to the success of the 
Apollo program and our victory in the space race.
    He received numerous awards for his work, including NASA's 
Medal of Exceptional Scientific Achievement. He was elected to 
the National Academy of Engineering and was the first recipient 
of the Joliet Junior College Distinguished Alumni Award.
    Dr. Houbolt retired after a distinguished career in 1985 
and passed away on April 15, 2014, at the age of 95. You can 
Google up a floor speech I gave in his honor in the U.S. House 
at the time.
    He and his extended family remain noted philanthropists and 
supporters of the community of Joliet, touching countless 
individuals and institutions with their generosity. His life is 
an example of the impact that a determined, intelligent, and 
passionate individual can have.
    So I just want to say, Mr. Fishman, do you have anything to 
add to that?
    Mr. Fishman. You've paid tribute to John Houbolt better 
than any of us could, I think. To me, the most important lesson 
there is going to the Moon has this aura of sort of 
completeness and seamlessness now, but it was a human endeavor. 
It was a workplace, almost half a million people. There were 
lots of real disagreements. There was real passion. And you 
needed individuals who had real conviction in order to get all 
the way. And so it wasn't just this smooth, seamless effort in 
which every choice was clear. It really required individuals to 
stand up and argue on behalf of what they believed. And John 
Houbolt did that in the face not just of opposition but 
sometimes outright contempt. And in the end NASA turned around 
and not only adopted his method, they said to him you were 
right, sir. You were arguing for the right thing all along.
    Mr. Foster. And the argument was based on numbers and truth 
and scientific and engineering facts. And that's----
    Mr. Fishman. Right. It was----
    Mr. Foster. That was the guide star, and we're having a----
    Mr. Fishman. Yes.
    Mr. Foster. You know, later on, in this Committee we're 
having a hearing on the importance of facts and numbers and 
scientific truth in government, and I think we can take a 
lesson there, too. Thank you, and I yield back.
    Chairwoman Johnson. Thank you very much. Now, the former 
Governor of Florida, the home of the Kennedy Space Center, Mr. 
Crist.
    Mr. Crist. Thank you, Madam Chair, and thank you for 
scheduling this hearing. And I especially want to thank the 
witnesses for being here today and taking up your valuable time 
to be with us and share your thoughts about this historic week 
that we are beginning today, you know, 50 years ago.
    And, as a Floridian, you know, I can remember as a kid 
getting on the roof of my parents' house in St. Petersburg sort 
of right across the State from the Kennedy Space Center, and 
watching launches all the time. And it was inspirational and 
amazing for all of us, I think.
    And so I wanted to ask each of you, what do you think was 
the single most important thing to come from the Apollo mission 
for us as a Nation?
    Dr. Jakab. Well, I think it wasn't one thing. I mean, we 
talked about so many different elements of the Apollo era. 
We've talked about the technology, we've talked about the 
political environment, we've talked about the need to have a 
purpose and commitment. We've talked about how we need to 
inspire ourselves as a Nation and sustain that inspiration and 
commitment and so forth.
    So I think as we, you know, look back at Apollo this week, 
yes, we can point to satellite technology and we can all pull 
out our cell phones and say, you know, there's a link to Apollo 
here and so forth. But I think what we really--the larger 
reflection is that all of these things came together in a 
powerful way that have changed our world, and we did it as a 
society. We did it as a people. We did it as a group. And if we 
can somehow communicate to our citizenry today that within the 
group there is power and within that power is accomplishment, 
that's probably to my way of thinking--when I look up at the 
Moon and think about--and I've had the great privilege in my 
job to have met Neil Armstrong and John Glenn and many of the 
great pioneers who accomplished that goal, I can look at the 
Moon and I can see the accomplishment of all those people, but 
I can see the accomplishment of the group, and I think that's 
perhaps the most profound lesson.
    Dr. Miller. I tend to think about it--it's the realization 
we live in a three-dimensional world. I know we all believe we 
live in it, but really, we're sort of two-dimensional. You 
know, our roads are two-dimensional, our--and that sometimes 
our thinking can be two-dimensional in that way. And the fact 
that there's this third dimension and it is the--it is by far 
the most vast dimension and the one we know the least about I 
think has really just sparked a whole bunch of careers and a 
whole bunch of passion for the field and a whole bunch of 
opportunity that is there for the taking if only we'll do that, 
take it.
    Mr. Fishman. I think it's worth injecting another little 
burst of reality. It was an incredibly unified effort and an 
incredibly unifying effort, but it took place in the context of 
the most divisive time in American culture going back to the 
Civil War. And so in some ways the achievement is all the more 
remarkable because the political and cultural context of the 
late 1960s was not unified at all.
    And so the women weaving the circuitry for the computers, 
the women making spacesuits, the people building the lunar 
module, nobody said before they climbed into the lunar module 
cabin under construction which side are you on Vietnam? They--
you know, this project proceeded in the midst of a lot of 
important national conversations that were not in fact calm or 
unified. So we cannot only do great things, we don't need to 
wait for some particular moment of unity. What we need is 
leadership.
    I think there's a second sort of myth that it's worth 
puncturing, and that is Apollo is not in fact that expensive. 
We sort of keep hearing that it was really expensive. The 
budget of NASA today is 1/10 proportionally what it was then. 
All in, Apollo cost $19.4 billion. That's actual dollars spent 
in the years they were spent. You hear the $24 billion. That's 
inflation-adjusted to 1974, $19.4 billion in the years they 
were spent.
    The Vietnam War had 2 years of the 10-year war, each of 
which cost more than $19.4 billion. There were 2 years of 
fighting in Vietnam, each of which cost more than the entire 
race to the Moon, not to mention the other 8 years of the war.
    Apollo lasted from 1961 to 1972, call it $20 billion. 
Americans spent $40 billion buying cigarettes from 1961 to 
1972. Whether it was a good use of money is a separate 
question, but we could certainly afford it. And so in the 
context of 2019, I think it's important to look at that as well 
and sort of say what can we afford and what will we get for it?
    Mr. Crist. Well, thank you. My time is about up, so I'll 
wrap up, Madam Chair. But, Mr. Fishman, I can't help but think 
about what you just said about, you know, Apollo occurring at 
one of the most divisive times in American history since the 
Civil War. And of course if you watch the news today, people 
comment much about the divisive nature of our society in 
America today in the same way. And so what better moment in 
time perhaps than for us to have the opportunity to get back to 
the Moon and be re-inspired and reunified.
    Chairwoman Johnson. Thank you very much. Before bringing 
the hearing to a close, I want to thank all of our witnesses 
for testifying before the Committee today and tell you how much 
we appreciate you coming and sharing this history with us.
    The record will remain open for 2 weeks for additional 
statements from Members and for any additional questions that 
the Committee may have of the witnesses. The witnesses are now 
excused, and the hearing is adjourned.
    [Whereupon, at 12:22 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
